No. __________

In the

Supreme Court of the United States
ARCHIE MANZANARES, Petitioner
v.

UNITED STATES OF AMERICA, Respondent
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

Petition for Writ of Certiorari

STEPHEN P. MCCUE
Federal Public Defender
Margaret A. Katze*
Assistant Federal Public Defender
111 Lomas Blvd., NW, Suite 501
Albuquerque, New Mexico 87102
Telephone: (505) 346-2489
Facsimile: (505) 346-2494
Attorneys for the Petitioner
* Counsel of Record

Questions Presented For Review
1. The “categorical approach” determines whether a prior conviction
qualifies as a violent felony under the Armed Career Criminal Act (ACCA).
The relevant question is whether the offense of conviction has as an element
the use, attempted use, or threatened use of violent physical force. The facts
of the offense are irrelevant. New Mexico juries are instructed the level of
force used in robbery is immaterial. Juries must decide only if the force
directly related to separating the property from the person. The Tenth
Circuit admits this is the law in New Mexico. However, in analyzing whether
robbery is a violent felony, it set state law and the categorical approach aside
and scrutinized facts in a select few of its own published cases. From the
facts, it derived a minimal level of force that it declared categorically has
been, and will be, found in every New Mexico robbery. Although no jury has
ever considered a minimum level of force, the circuit court decided the
minimum it had devised equals “physical force” as defined by this Court.
Does the Tenth Circuit’s analysis, which relies on facts rather than
elements, abrogate this Court’s holdings that the categorical approach focus
on the elements, as defined by state law, to determine what a prior conviction
actually established?
2. New Mexico courts have held the state’s aggravated assault statute
does not have a mens rea element with respect to the victim. Does a criminal
offense that can be committed without any mens rea qualify as a violent
felony under the ACCA?

i

3. Does New Mexico aggravated battery qualify as a violent felony under
the ACCA when it requires only an unlawful touch and may result in an
injury that was unintended?

ii

Related Proceedings
United States Court of Appeals for the Tenth Circuit
United States v. Archie Manzanares, Case No. 18-2010
Opinion Entered: April 17, 2020
Mandate Entered: June 9, 2020
United States District Court for the District of New Mexico
United States v. Archie Manzanares, Case No. 12-CR-2563-WJ & No. 16CV-599-WJ/SMV
Judgment Entered: December 1, 2017

iii

Table of Contents
Page
Questions Presented for Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Related Proceedings. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
Table of Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vi
Opinions Below . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Jurisdiction. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Pertinent Constitutional and Statutory Provisions . . . . . . . . . . . . . . . . . . . . . . 2
Statement of the Case . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
A. District Court Proceedings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
B. Tenth Circuit Proceedings. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Reasons for Granting the Writ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
A. To determine whether a past conviction is a violent felony, the Tenth
Circuit forgoes elements and the categorical approach and creates one
that examines facts from select state cases and sets a Johnson I
threshold level of force that it says every robbery prosecution
will meet . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
B. A criminal offense that can be committed with a mens rea of
recklessness does not qualify as a violent felony under the ACCA. . . . 22
1. At a minimum, the Court should hold this petition pending disposition
of Borden v. United States, No. 19-5410, which will decide whether a
criminal offense that can be committed with a mens rea of
recklessness can qualify as a “violent felony” under the ACCA, and
then grant this petition, vacate the judgment, and remand for
reconsideration in light of that decision (GVR) . . . . . . . . . . . . . . . . . . 23
C. New Mexico aggravated battery, which can be completed by the
slightest offensive touch, is focused on the resulting harm to the person
not the force behind the unlawful touching, and so does not
categorically include an element of violent physical force as described
by this Court in Johnson I. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

iv

Table of Contents (continued)
Page
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
Appendix:
United States v. Manzanares
Tenth Circuit’s Published Decision, 956 F.3d 1220 (10th Cir. April 17,
2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
United States v. Manzanares
District Court’s Memorandum Opinion and Order Dismissing Manzanares’
Motion Filed Pursuant to 28 U.S.C. § 2255 (December 1, 2017) . . . . . . . 11a
United States v. Manzanares
District Court’s Order Issuing Certificate of Appealability
(December 1, 2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45a

v

Table of Authorities
Page
Cases
Borden v. United States
No. 19-5410 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14, 23-25
Descamps v. United States
570 U.S. 254 (2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 17-21
Johnson v. United States
559 U.S. 133 (2010) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 9, 10, 14-16, 25-27
Johnson v. United States
576 U.S. 591 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 17
Larios-Reyes v. Lynch
843 F.3d 146 (9th Cir. 2016). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Lawrence v. Chater
516 U.S. 163 (1996) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23, 24
Leocal v. Ashcroft
543 U.S. 1 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Mathis v. United States
136 S.Ct. 2243 (2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 17, 21
Mellouli v. Lynch
575 U.S. 798 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Moncrieffe v. Holder
569 U.S. 184 (2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Robinson v. State
692 So.2d 883 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Shepard v. United States
544 U.S. 13 (2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
State v. Branch
417 P.3d 1141 (N.M. Ct. App. 2018). . . . . . . . . . . . . . . . . . . . . . . 8, 11-13, 22
State v. Chavez
82 N.M. 569 (Ct. App. 1971) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
State v. Clokey
89 N.M. 453 (1976) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

vi

Table of Authorities (continued)
Page
Cases
State v. Curley
123 N.M. 295 (Ct. App. 1997) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 19, 20
State v. Hill
131 N.M. 195 (Ct. App. 2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
State v. Kraul
90 N.M. 314 (Ct. App. 1977) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
State v. Lewis
116 N.M. 849 (Ct. App. 1993) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
State v. Manus
93 N.M. 95 (1979) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
State v. Ortega
113 N.M. 437 (Ct. App. 1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25, 26, 29
State v. Seal
76 N.M. 461 (1966) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Stokeling v. United States
139 S.Ct. 544 (2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 19
United States v. Alfaro
408 F.3d 204 (5th Cir. 2005). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
United States v. Castleman
572 U.S. 157 (2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14, 15, 27, 28
United States v. Estrella
758 F.3d 1239 (11th Cir. 2014). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
United States v. Garcia
877 F.3d 944 (10th Cir. 2017). . . . . . . . . . . . . . . . . . . . . . . . . . 7, 9, 10, 16-21
United States v. Jaimes-Jaimes
406 F.3d 845 (7th Cir. 2005). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
United States v. Maldonado-Palma
839 F.3d 1244 (10th Cir. 2016). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 13
United States v. Manzanares
956 F.3d 1220 (10th Cir. 2020). . . . . . . . . . . . . . . . . 1, 7-9, 14, 16, 22, 26, 27

vii

Table of Authorities (continued)
Page
Cases
United States v. Narvaez–Gomez
489 F.3d 970 (9th Cir. 2007). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
United States v. Ontiveros
875 F.3d 533, 536 (10th Cir. 2017). . . . . . . . . . . . . . . . . . . . . . . . 8, 14, 26-29
United States v. Parral-Dominguez
794 F.3d 440 (4th Cir. 2015). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
United States v. Perez-Vargas
414 F.3d 1282 (10th Cir. 2005). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
United States v. Ramon Silva
608 F.3d 663 (10th Cir. 2010). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 11-13
United States v. Rede-Mendez
680 F.3d 552 (6th Cir. 2012). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
United States v. Rico-Mejia
859 F.3d 318 (5th Cir. 2017). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
United States v. Rodriguez-Enriquez
518 F.3d 1191 (10th Cir. 2008). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
United States v. Torres-Miguel
701 F.3d 165 (4th Cir. 2012). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Wellons v. Hall
558 U.S. 220 (2010) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23, 24
Whyte v. Lynch
807 F.3d 463 (1st Cir. 2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

viii

Table of Authorities (continued)
Page
Constitution
U.S. CONSTITUTION, Amendment V. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Federal Statutes
18 U.S.C. § 922(g). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
18 U.S.C. § 922(g)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
18 U.S.C. § 924(a)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
18 U.S.C. § 924(e). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 5
18 U.S.C. § 924(e)(2)(B) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 6, 11
21 U.S.C. § 844 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 2255 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 6
State Statutes
N.M. Stat. Ann. § 30-3-2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
N.M. Stat. Ann. 30-3-5. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 25
N.M. Stat. Ann. § 30-7-4(A)(3). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
N.M. Stat. Ann. § 30-16-2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
State Jury Instructions
NMRA Crim. UJI 14-1620. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 25
Other Authority
Black’s Law Dictionary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14, 15
Webster’s New International Dictionary . . . . . . . . . . . . . . . . . . . . . . . . . . 14, 15

ix

In the

Supreme Court of the United States
ARCHIE MANZANARES, Petitioner
v.

UNITED STATES OF AMERICA, Respondent
Petition for Writ of Certiorari

Archie Manzanares petitions for a writ of certiorari to review the judgment
and opinion of the United States Court of Appeals for the Tenth Circuit in his
case.

Opinions Below
The Tenth Circuit’s decision in United States v. Manzanares, Case No. 182010, affirming the district court's denial of Manzanares’ 28 U.S.C. § 2255
motion challenging his Armed Career Criminal Act (ACCA) sentence, was
published and is reported at 956 F.3d 1220 (10th Cir. 2020).1 The district
court’s memorandum opinion denying the motion was not published.2

1

App. 1a-10a. “App.” refers to the attached appendix. ‘PSR’ refers to the

probation office’s presentence report. The record on appeal contained four volumes.
Manzanares refers to the documents and pleadings in those volumes as Vol. __
followed by the bates number on the bottom right of the page (e.g. Vol. I at 89).
2

App. 11a - 44a.

1

Jurisdiction
On April 17, 2020, the Tenth Circuit affirmed the district court’s decision
to deny Manzanares’ § 2255 motion challenging his ACCA sentence.3 This
Court has jurisdiction pursuant to 28 U.S.C. § 1254(1). According to this
Court’s Order from March 19, 2020, this petition is timely if filed on or before
September 14, 2020.

Pertinent Constitutional and Statutory Provisions
U.S. Constitution, Amendment V
No person shall . . . be deprived of life, liberty, or property, without due
process of law . . . .
18 U.S.C. § 924(e)
The federal statutory provision involved in this case is 18 U.S.C. § 924(e),
which provides in part:
(1) In the case of a person who violates section 922(g) of this title and has
three previous convictions by any court referred to in section 922(g)(1) of this
title for a violent felony . . . committed on occasions different from one
another, such person shall be . . . imprisoned not less than fifteen years, and,
notwithstanding any other provision of law, the court shall not suspend the
sentence of, or grant a probationary sentence to, such person with respect to
the conviction under section 922(g).
(2) As used in this subsection—. . .
(B) the term “violent felony” means any crime punishable by
imprisonment for a term exceeding one year, . . . that—

3

App. 1a-10a.

2

(i) has as an element the use, attempted use, or threatened use of
physical force against the person of another; or
(ii) is burglary, arson, or extortion, involves use of explosives, or
otherwise involves conduct that presents a serious potential risk of physical
injury to another; . . . .
New Mexico Statutes
The first New Mexico statutory provision involved in this case is N.M.
Stat. Ann. § 30-16-2, which provides as follows:
Robbery consists of the theft of anything of value from the person of
another or from the immediate control of another, by use or threatened use of
force or violence.
Whoever commits robbery is guilty of a third degree felony.
Whoever commits robbery while armed with a deadly weapon is, for the
first offense, guilty of a second degree felony and, for second and subsequent
offenses, is guilty of a first degree felony.
The New Mexico Uniform Jury Instruction on robbery, NMRA Crim. UJI
14-1620, provides as follows:
For you to find the defendant guilty of robbery, the state must prove to
your satisfaction beyond a reasonable doubt each of the following elements of
the crime:
1. The defendant took and carried away __________ (identify property),
from __________ (name of victim), or from his immediate control intending to
permanently deprive __________ (name of victim) of the property; [the
__________ (property) had some value;]
2. The defendant took the __________ (property) by [force or violence] [or]
[threatened force or violence];
3

3. This happened in New Mexico on or about the ___ day of _______, _____.
USE NOTES: The gist of the offense of robbery is the use of force or
intimidation. Although the amount of force is immaterial, the force or
threatened use of force must be directly related to the separation of the
property from the person of another.
The second New Mexico statutory provision involved in this case is N.M.
Stat. Ann. § 30-3-2, which provides as follows:
Aggravated assault consists of either:
A. unlawfully assaulting or striking at another with a deadly weapon;
B. committing assault by threatening or menacing another while wearing
a mask, hood, robe or other covering upon the face, head or body, or while
disguised in any manner, so as to conceal identity; or
C. willfully and intentionally assaulting another with intent to commit
any felony. Whoever commits aggravated assault is guilty of a fourth degree
felony.
The final New Mexico statutory provision addressed in this petition is
N.M. Stat. Ann. 30-3-5, which describes the offense of aggravated battery:
A. Aggravated battery consists of the unlawful touching or application of
force to the person of another with intent to injure that person or another.
B. Whoever commits aggravated battery, inflicting an injury to the person
which is not likely to cause death or great bodily harm, but does cause painful
temporary disfigurement or temporary loss or impairment of the functions of
any member or organ of the body, is guilty of a misdemeanor.
C. Whoever commits aggravated battery inflicting great bodily harm or
does so with a deadly weapon or does so in any manner whereby great bodily
harm or death can be inflicted is guilty of a third degree felony.
4

Statement of the Case
A. District Court Proceedings
In July, 2013, the district court sentenced Manzanares as an armed
career criminal to a prison term of 15 years. Vol. 2 at 19-21.
Manzanares negotiated a plea agreement with the government. He agreed
to plead guilty to being a felon in possession of a firearm, in violation of 18
U.S.C. §§ 922(g)(1) and 924(a)(2) and to possession of a controlled substance
in violation of 21 U.S.C. § 844. Vol. 2 at 10-17; PSR ¶ 1. The parties
stipulated that if Manzanares was an armed career criminal the Court would
sentence him to 15 years in prison. Vol 2 at 12. If he was not, then he would
not be bound by the agreement. Id.
After Manzanares pleaded guilty to the two charges, the probation office
prepared a presentence report. In the PSR, the probation office maintained
that Manzanares’ prior convictions made him an armed career criminal. PSR
¶ 39. Without listing the convictions it believed were ‘violent felonies,’ the
office concluded that Manzanares had “at least three.” PSR ¶ 39.
Consequently, it said that Manzanares was “subject to an enhanced sentence”
required by 18 U.S.C. § 924(e). Id.
Under the ACCA, when an accused is convicted of violating § 922(g)(1), the
statutory imprisonment range rises from zero to ten years (§ 924(a)(2)), to a
mandatory minimum of fifteen years to life, if he has three prior convictions
for a ‘violent felony’ committed on occasions different from one another.
§ 924(e)(1). A felony offense is a ‘violent felony’ if it fits within § 924(e)(2)(B)’s
force clause, enumerated clause or residual clause. It was evident that
Manzanares' convictions did not come within the enumerated clause. Yet,

5

neither the parties nor the probation office explained how Manzanares’
convictions fit within the two remaining clauses.
At the sentencing hearing, the Court accepted the binding plea agreement
and the probation office’s designation of Manzanares as an armed career
criminal. Vol. 4 at 5. The parties did not object to that designation or to any
findings in the presentence report. Id. at 3. The court followed the plea
agreement and ordered that Manzanares be imprisoned for 180 months. Id.
at 5.
In June 2015, this Court struck down the residual clause of the ACCA as
being unconstitutionally vague. Johnson v. United States, 576 U.S. 591, 606
(2015) (“Johnson II”). Soon afterwards Manzanares filed a motion to correct
his sentence. Vol. 2 at 25. He argued that the residual clause in
§ 924(e)(2)(B) was no longer valid after Johnson II and that New Mexico
armed robbery, aggravated assault and aggravated battery were not violent
felonies as defined by the force clause. Vol. 2 at 30-48. The district court
denied Manzanares’ motion. Id. at 156. It claimed all three offenses had an
element that conformed to the force clause definition. Accordingly, it
dismissed Manzanares’ § 2255 motion with prejudice. Vol. 2 at 189.
However, it granted a certificate of appealability on the issue of whether
Manzanares’ prior armed robbery conviction qualified as a violent felony
under the ACCA.4 Manzanares then filed a timely notice of appeal. Id. at
193.

4

App. 45a - 46a.

6

B. Tenth Circuit Proceedings
Although the certificate of appealability was for the robbery issue only, the
Tenth Circuit addressed Manzanares’ challenge to the aggravated assault
and aggravated battery convictions as well. 956 F.3d at 1226-28; App. 8a-9a.
First, regarding robbery, the court said it was bound by its earlier decision in
United States v. Garcia, 877 F.3d 944 (10th Cir. 2017). There, it held New
Mexico robbery categorically is a violent felony. By examining the facts from
select published decisions of the New Mexico appellate courts, Garcia
delineated a minimum level of force it believed had been and would be used
by every accused convicted of robbery. Manzanares, 956 F.3d at 1225-27
(citing Garcia, 877 F.3d at 954-56).
Irrespective of Garcia’s analytical approach, the court said Stokeling v.
United States, 139 S.Ct. 544 (2019) endorsed its result. It insisted, like
Garcia, Stokeling held that robbery committed by snatching or grabbing
which “‘overcome[s] the resistance of attachment’” is perpetrated with
Johnson I level force. 956 F.3d at 1225 (quoting State v. Curley, 123 N.M.
295, 297 (Ct. App. 1997)). However, the court overlooked that unlike New
Mexico, Florida’s robbery statute, addressed in Stokeling, “‘requires
resistance by the victim that is overcome by the physical force of the
offender.’” Stokeling, 139 S.Ct. at 553-55 (quoting Robinson v. State, 692
So.2d 883, 886 (1997)).
Stokeling equated the force needed to complete Florida’s robbery with
violent force because the “physical resistance” element necessarily involved
“a physical confrontation and struggle.” Id. at 553. In Manzanares, the court
did not explain how Stokeling reinforced Garcia when that element and its

7

accompanying “physical contest” are not necessary components, nor the
inevitable result of New Mexico robbery.
Moving to New Mexico aggravated assault, the court found it also is a
violent felony. Relying on earlier decisions in United States v. MaldonadoPalma, 839 F.3d 1244 (10th Cir. 2016) and United States v. Ramon Silva, 608
F.3d 663 (10th Cir. 2010), the court said intervening New Mexico case law
disapproving of Ramon Silva’s interpretation of the state’s aggravated assault
statute was irrelevant. 956 F.3d at 1227. In State v. Branch, 417 P.3d 1141
(N.M. Ct. App. 2018), the court held the prosecution did not have to prove the
threat or conduct was directed toward the victim. Manzanares argued this
holding is proof the offense does not have the “against the person of another”
element of the ACCA’s force clause. The Tenth Circuit disagreed. It said,
New Mexico aggravated assault was a “general intent” crime in which an
accused, “threaten[s] the use of physical force against the person of another.”
956 F.3d at 1227.
Third, again relying on its precedent, the court rejected Manzanares’
argument that New Mexico aggravated battery fell outside the force clause.
The court conceded the offense can be committed merely by an unlawful
touch. Id. at 1228. However, in United States v. Ontiveros, 875 F.3d 533, 536
(10th Cir. 2017), it held that one cannot cause bodily injury without the use of
physical force. Since harm or potential harm is an element of the New Mexico
offense, according to Ontiveros, it could not be perpetrated without using
physical force. Id.

8

Reasons for Granting the Writ
A. New Mexico appellate courts have repeatedly held in state robbery
cases that the amount of force required to overcome resistance is immaterial.
This accords with commentary to New Mexico’s uniform jury instructions. A
jury must decide only if the force used was directly related to the separation
of property from the person. It does not decide the level of force used or if it
reached a certain threshold or if the victim actively resisted.
In Garcia, the Tenth Circuit conceded that to prove robbery in New Mexico
does not seem to require the “physical force” defined in Johnson v. United
States, 559 U.S. 133, 140 (2010) (“Johnson I”). 877 F.3d at 950-53, 956. But
rather than apply the categorical approach to the robbery statute, it held that
what New Mexico courts have “said is less important than what is done” by a
particular subset of defendants. 877 F.3d at 956. The court itself then
created the benchmark by examining facts in published opinions it chose and
aggregating them to establish a level of force it deemed necessary for every
New Mexico robbery conviction. Id. at 953, 956. The court cited no authority
for its unprecedented approach. Equally noteworthy is its compilation of
selected facts led it to conclude robberies in New Mexico will always involve
the necessary “physical force” defined by this Court in Johnson I. Id. at 956.
The Tenth Circuit’s analysis conflicts with Descamps, Moncrieffe, and
Mathis,5 which mandate only the elements matter under the categorical
approach. The only facts a reviewing court can be certain were found by a

5

Descamps v. United States, 570 U.S. 254, 268-274 (2013); Moncrieffe v. Holder,

569 U.S. 184, 197-98, 200-01 (2013); Mathis v. United States, 136 S.Ct. 2243, 2256
(2016).

9

jury are those that constitute elements of the offense. Those are not the facts
used to develop the Tenth Circuit’s anomalous standard. New Mexico juries
deliberating whether the elements of robbery were established do not decide
the level of force used to separate the property from the person. Nor do they
decide whether the force reached the Tenth Circuit’s averred threshold. The
court did what this Court forbids; it relied on its own interpretation of facts,
unrelated to statutory elements, to secure ACCA enhancements.
This Court should overrule Garcia. The approach the Tenth Circuit uses
to ensure New Mexico robbery is a violent felony is without authority and
contrary to this Court’s categorical approach rules. Leaving the decision
intact sanctions courts culling desirable facts from hand-picked cases to
wedge prior convictions into the force clause even if the elements, as defined
by state courts and legislatures, do not fit.6 The Court also should find New
Mexico robbery does not require the force necessary to implicate the force
clause and the ACCA cannot apply to Manzanares.
B. Because New Mexico courts expressly have held that the prosecution is
not required to prove any threat, or any conduct at all, directed toward the
victim of an aggravated assault, the Tenth Circuit’s decision, that the offense
nonetheless has as an element the use, attempted use or threatened use of
violent force, is in conflict with five other circuits that have held a state
offense must have as an element a mens rea relating to the victim to come
within the force clause.

6

Earlier in the same year, the court used its unauthorized analysis in United

States v. Harris, 844 F.3d 1260, 1266-68 (10th Cir. 2017) to conclude Colorado
robbery categorically matched the “physical force” definition of Johnson I.

10

Citing with approval Tenth Circuit Judge Hartz’s dissent in United States
v. Ramon Silva, 608 F.3d 663, 674-78 (10th Cir. 2010), abrogated on other
grounds, as recognized by United States v. Marquez, 728 F. App’x 884 (2018),
the New Mexico Court of Appeals has definitively ruled that to prove New
Mexico aggravated assault with a deadly weapon (“AADW”) the state is “not
required to prove any threat – or any conduct at all – directed toward the
[victim].” Branch, 417 P.3d at 1147-49. Had the Fourth, Fifth, Seventh,
Ninth and Eleventh Circuits reviewed whether this offense comes within
§ 924(e)(2)(B)(i)’s force clause definition, settled precedent would have
dictated a decision that New Mexico AADW is not a violent felony. The courts
would have contradicted the Tenth Circuit because the offense is missing the
“against the person of another” component essential to the force clause. See,
e.g., United States v. Parral-Dominguez, 794 F.3d 440, 445-46 (4th Cir. 2015)
(discharging a firearm offense did not satisfy force clause because it could be
committed without targeting or threatening to target occupant); United States
v. Alfaro, 408 F.3d 204, 209 (5th Cir. 2005) (shooting into occupied dwelling
under Virginia law does satisfy sentencing guidelines force clause definition
in § 2L1.2, because accused could commit offense “merely by shooting a gun at
a building that happens to be occupied” without deliberately shooting,
attempting to shoot, or threatening to shoot another person); United States v.
Jaimes-Jaimes, 406 F.3d 845, 849-50 (7th Cir. 2005) (offense did not fall
within “against the person of another” element of guidelines’ force clause
because shooting at building or vehicle required only that shooter should have
realized there might be a human being present); United States v.
Narvaez–Gomez, 489 F.3d 970, 976-77 (9th Cir. 2007) (discharging firearm at
occupied dwelling under California law is categorically not a crime of violence
11

because it may be committed with “purely reckless conduct” toward another
person); United States v. Estrella, 758 F.3d 1239, 1248-54 (11th Cir. 2014)
(government did not prove defendant’s conviction for shooting at a vehicle
satisfied against a person requirement in guideline’s force clause because not
apparent which of offense’s mens rea elements formed basis of conviction –
with knowledge that damage would likely be done to property or to a person).
Branch demonstrates that the Tenth Circuit has relied on an incorrect, or
at least incomplete, understanding of New Mexico aggravated assault’s
elements. According to Branch, the prosecution is not required to prove that
the accused intended to assault a bystander, for instance, “‘but only that he
did an unlawful act which caused [the bystander] to reasonably believe that
she was in danger of receiving an immediate battery, that the act was done
with a deadly weapon, and that it was done with general criminal intent.’”
Branch, 417 P.3d at 1148 (quoting State v. Manus, 93 N.M. 95, 99 (1979))
(brackets added in Branch). The Court of Appeals explained this meant
“[t]here is no nexus required between” the accused and the victim. Id. That
holding contradicts the Ramon Silva majority’s that the state must prove “a
defendant purposefully threatened or engaged in menacing conduct toward a
victim.” 608 F.3d at 674 (emphasis added).
In pointing to Judge Hartz’s dissent in Ramon Silva, Branch clarified that
an individual can be guilty of aggravated assault if he commits an unlawful
act, with conscious wrongdoing, by handling a weapon in a manner that
induces fear of battery without any mens rea of any sort directed at the
person whose fear has been induced. 417 P.3d at 1148 (citing Ramon Silva,
608 F.3d at 675 (Hartz, J., dissenting); cf. N.M. Stat. Ann. § 30-7-4(A)(3)
(prohibiting negligent use of deadly weapon by handling firearm in negligent
12

manner). That Branch cited with approval Judge Hartz’s interpretation and
not the Ramon Silva majority’s, confirms its interpretation was incorrect
under New Mexico law.7 Correctly interpreted, New Mexico AADW, does not
require the prosecution to establish any threat – or any conduct at all –
directed toward an innocent bystander.
Under the ACCA, the ultimate inquiry is whether a particular predicate
offense constitutes a “violent felony.” It is evident from the plain language of
that clause that offenses that can be committed recklessly do not qualify as
ACCA predicates. The phrase “the use of physical force against the person of
another” clarifies that only a singular kind of physical force suffices: one that
is directed or aimed at another person. As Branch illustrates, in New Mexico,
a person can commit aggravated assault without explicitly targeting another
person. Recklessly or negligently engaging in conduct that unknowingly
creates a reasonable fear of harm in another is enough. Because New Mexico
aggravated assault does not have as an element, “against the person of
another,” it is not a violent felony as described in the ACCA’s force clause.
The Tenth Circuit incorrectly characterized it as a violent felony under the
force clause.

7

Branch also approved of United States v. Rede-Mendez, 680 F.3d 552, 557 (6th

Cir. 2012). It said the court accurately depicted the mens rea of New Mexico
aggravated assault when it held that the offense “differs from the generic version
most significantly in the mens re it attaches to the element of bodily injury or fear
of injury.” 417 P.3d at 1148. In spite of the Court of Appeals imprimatur, RedeMendez’s interpretation was rejected by the Tenth Circuit in Maldonado-Palma.
839 F.3d 1250 n.9

13

At a minimum, the Court should hold this petition pending disposition of
Borden v. United States, No. 19-5410, and then grant this petition, vacate the
judgment and remand for reconsideration.
C. In New Mexico aggravated battery simply demands evidence that a
person touched another without permission. State v. Kraul, 90 N.M. 314,
316-17 (Ct. App. 1977) (simply battery is necessary element of aggravated
battery). Relying on United States v. Ontiveros, 875 F.3d 533 (10th Cir.
2017), the Tenth Circuit here rejected a distinction between an element
requiring violent physical force and conduct resulting in injury. Manzanares,
956 F.3d at 1228. Ontiveros held that United States v. Castleman, 572 U.S.
157 (2014) cast aside any distinction between direct and indirect application
of force. Ontiveros, 875 F.3d at 538. Despite this Court’s express disclaimer
in Castleman that it was not deciding whether bodily injury necessarily
requires “physical force” as used in the force clause, the Tenth Circuit held
that Castleman decided just that. According to the Tenth Circuit then, any
injury, irrespective if it was intended, necessarily is caused by violent
physical force. Manzanares, 956 F.3d at 1228.
The Tenth Circuit is mistaken. Johnson I controls, not Ontiveros. The
force required to bring an offense within the force clause is strong, physical
force. Johnson I, 559 U.S. at 140. An offense committed by mere touching,
like New Mexico aggravated battery, may set events in motion that cause
great bodily harm, but it does not categorically require Johnson I level force.
United States v. Torres-Miguel, 701 F.3d 165, 168 (4th Cir. 2012).
To interpret the force clause in Johnson I, the Court referred to the
definition of ‘physical force’ in Black’s Law Dictionary and to Webster’s New
International Dictionary’s description of ‘violent.’ 559 U.S. at 140-41. Black’s
14

defined ‘physical force’ as “force consisting in a physical act.” Id. According
to Webster, ‘violent’ means “moving, acting or characterized by strong
physical force.” Id. Consequently, violent physical force in the force clause
means the physical application of strong force. Basic physics, then, is first to
define the act being analyzed.
New Mexico cases do not require proof of a willingness to use violent force.
All that is asked is evidence that person touched another without permission.
The events set in motion by an unwanted touch which may unintentionally
cause injury do not create force; it is present in the underlying unlawful
touch. Thus, there is a material difference between a touch that may or may
not lead to a violent outcome, and the actual or threatened use of violent
physical force. The latter comes within the ACCA’s force clause; the former
does not.
In New Mexico, an unlawful touch is the only force necessary to complete
an aggravated battery. Clearly, the use of physical force, as described in
Johnson I, is not an element of this offense. This Court should grant
certiorari to resolve the impact, if any, of Castleman on the felony force clause
and determine whether an offense with an element of bodily injury
necessarily also has as an element the use of violent physical force.

15

A. To determine whether a past conviction is a violent felony, the
Tenth Circuit forgoes elements and the categorical approach
and creates one that examines facts from select state cases and
sets a Johnson I threshold level of force that it says every
robbery prosecution will meet.
In Garcia, 877 F.3d at 953, the panel agreed that in New Mexico, a jury is
not asked to decide as an element of robbery, the degree of force and whether
that force was capable of causing bodily injury. The panel then conceded that
when, as in New Mexico, “no specific quantum of force is required to commit a
robbery . . . it precludes the use of convictions under the Element Clause of
the ACCA.” Id. at 953 n. 9; & id. at 956 (admitting New Mexico cases have
held “any quantum of force which overcomes resistance could be sufficient to
support a robbery conviction”). It also acknowledged that New Mexico’s
Uniform Jury Instruction for robbery was one in which the amount of force
used to commit robbery was described as “immaterial.” Id.
Still, Garcia dismissed the instructions sanctioned by the New Mexico
Supreme Court and the state appellate courts’ rulings because “what is said
is less important than what is done.” Id. at 956. In other words, it was
convinced by its truncated survey of published appellate decisions that every
robbery conviction in New Mexico will categorically involve more force than
the “minimal level of physical force to take a victim’s property.” Id.
Garcia cited no authority for this novel approach. The Manzanares panel
incorrectly used it to decide the robbery issue here. 956 F.3d 1225-27.
Because it is antithetical to this Court’s mandated categorical approach,
Garcia has no precedential value. Dismissing as less important what is said
by a state’s appellate courts or legislature and focusing instead on what is
done by an accused in a particular case is expressly contrary to how a court
applies the categorical approach.
16

To determine if a prior conviction comes within a federal enhancement
definition, courts generally employ the “categorical approach.” Mathis, 136 S.
Ct. at 2248. With the categorical approach, the court looks at the elements of
the crime rather than the details of the accused’s conduct. Descamps, 570
U.S. at 257. Specifically, courts “compare the elements of the statute forming
the basis of the defendant’s conviction with the elements of the ‘generic’ crime
– i.e., the offense as commonly understood.” Id. Courts do not assess the
offense “in terms of how an individual offender might have committed it on a
particular occasion,” but rather “in terms of how the law defines the offense.”
Johnson II, 576 U.S. at 596 (quotation marks omitted). The categorical
approach is meant to ensure that a particular crime does not at times count
as a predicate offense and other times not, “depending on the facts of the
case.” Descamps, 570 U.S. at 268 (citation, quotation marks omitted).
Consequently, a state court’s interpretation of its statutes is important
because it establishes and defines the elements which apply in every
prosecution. See Larios-Reyes v. Lynch, 843 F.3d 146, 152 (9th Cir. 2016)
(circuit courts’ analysis of state offense’s elements is “constrained” by state
appellate courts’ definition and interpretation of state law); Mathis, 136 S. Ct
at 2254 (“[A] good rule of thumb for reading . . . decisions is that what they
say and what they mean are one and the same.”).
Reviewing non-elemental facts of past cases, as the Garcia panel did,
undermines this Court’s directive to decide rules of law on categorical
grounds. See Mathis, 136 S.Ct. at 2253 (stressing that modified categorical
approach is used only to identify the elements of the crime of conviction
“when a statute’s disjunctive phrasing renders one (or more) of them
opaque.”). Instead of looking only at robbery’s elements as defined and
17

interpreted by New Mexico courts, Garcia examined the facts of a select
cluster of cases to craft a measure of force it insists will have been proven in
every New Mexico robbery conviction. This premise is ill-conceived. As
Garcia acknowledges, in those cases the factfinder did not find the accused
used a specific level of force, because that is not an element of the offense.
See Garcia, 877 F.3d at 953 (acknowledging New Mexico’s appellate courts
decide sufficiency issues on the force element by evaluating whether force
compelled the person to part with property, not how much force was used).
At times, an accused may use a level of force that satisfies the federal
physical force definition. But as the degree of force and whether that force
was capable of causing bodily injury are not elements, the force used will not
necessarily rise to that level in every case. To suggest otherwise, as Garcia
does, is conjecture. “[T]he only facts the court can be sure the jury so found
are those constituting the elements of the offense – as distinct from
amplifying but legally extraneous circumstances.” Descamps, 570 U.S. at
269-70. Put simply, the degree of force that may have been used in a New
Mexico robbery was “irrelevant to crime charged.” Id. at 270. Garcia’s
analysis leads to an outcome that cannot naturally be categorical.
Descamps addressed the difficulty with Garcia’s hypothetical construct.
To paraphrase the Court, as long as New Mexico requires only some force as
the lever by which the item is taken then, that is all the indictment “must
allege,” it is all the jury instructions “must mention” and it is all “the jury
must find to convict the defendant.” Descamps, 570 U.S. at 273. Before
factfinders convict an accused for robbery in New Mexico, they are not asked
to agree on a level of force used by the accused. And they certainly are not
required to find it reached a certain threshold, nor whether the victim
18

actively resisted the taking. Compare Stokeling, 139 S.Ct. at 554-55
(emphasizing that Florida robbery requires resistance by victim that is
overcome by accused’s force). “Whatever the underlying facts or evidence
presented, the defendant still will not have been convicted, in the deliberate
and considered way the Constitution guarantees, of an offense with the same
elements as the supposed generic crime.” Descamps, 570 U.S. at 273.
When no specific amount of force is required to complete a robbery, the
offense at times will be committed with more than minimal force, and other
times it will not. United States v. Bong, 913 F.3d 1252, 1263-64 (10th Cir.
2019). If some means used to commit the offense are non-violent under the
force clause, then the offense is not a violent felony predicate for an ACCA
enhancement. Garcia used Curley and other cases to establish an
unconditional minimum level of physical force that was never intended or
sanctioned by New Mexico’s legislature or appellate courts to be an element of
the offense. The panel insisted every state opinion it reviewed examined
“what level of force was actually deemed sufficient in practice.” 877 F.3d at
953. That is incorrect.
For example, Garcia suggested that Curley held an “intentional shove” was
enough to satisfy robbery’s force element. 877 F.3d at 954. But sufficiency of
proof was not at issue. Instead, Curley considered whether the trial court
erred by not giving a lesser-included larceny instruction in a robbery case.
123 N.M. at 296, 299. It reviewed whether a reasonable “jury’s view of the
facts and which inferences it chooses to draw” justified a larceny instruction.
Id. at 299. It concluded “the facts are rich with conflicting inferences” and the
instruction was warranted. Id.

19

Deciding if a “shove” was “intentional” and the degree of force used were
not part of the court’s holding. What conduct constituted robbery or larceny
was determined by the jury. Id. at 299. Accordingly, the court examined
reasonable but divergent inferences, not absolutes. For example, a “shove”
and “other force in grabbing the purse” could be “incidental” depending on the
jury’s view of the evidence. Id. (emphasis added). Rather than support
Garcia’s adoption of a minimum level of force for robbery in New Mexico,
Curley makes Manzanares’ point: the degree of force is immaterial to decide
whether force was used. New Mexico robbery may be accomplished in a
variety of ways with varying degrees of force. Indeed, it can be perpetrated
with minimal force and without any purposeful resistance by, or injury to, the
victim.
Irrefutably, no one with a New Mexico robbery conviction will have been
found by the factfinder to have used a specific degree of physical force, or
more pointedly, to have used “active . . . violent force - force capable of causing
physical pain or injury - against another person.” See State v. Clokey, 89
N.M. 453, 453-54 (1976) (evidence of “snatching of the purse from the victim”
was sufficient to establish robbery); Curley, 123 N.M. at 296 (“even a slight
amount” of force enough to make taking a robbery); State v. Lewis, 116 N.M.
849, 851 (Ct. App. 1993) (amount or degree does not determine whether item
taken by force, rather jury decides whether force caused person to part with
possession). The Tenth Circuit cannot replace the “facts . . . constituting
elements of the offense” by “amplifying [] legally extraneous circumstances”
and then imply they were the means of commission underlying the
prosecution’s theory of the crime. Descamps, 570 U.S. at 270.

20

Garcia invites the lower courts to examine the non-elemental facts in state
appellate decisions and ask whether they move a prior conviction into the
relevant enhancement definition. Descamps warned against such an
approach; “we have expressly and repeatedly forbidden” a court from “asking
whether a particular set of facts leading to a conviction conforms to a generic
[] offense.” Descamps, 570 U.S. at 274. By not hewing to the state court’s
interpretation of the offense’s elements, and not “focusing on the legal
question of what a conviction necessarily established,” the fairness and
predictability in the administration of federal criminal law is upended.
Mellouli v. Lynch, 575 U.S. 798, 135 S.Ct. 1980, 1987 (2015) (emphasis in
original). Indeed, Garcia encourages repeated litigation on the same issue.
Parties will scour state court transcripts – “‘where the rubber meets the
road’” – to prove “in practice,” there are facts that either do or do not satisfy a
federal enhancement definition. Garcia, 877 F.3d at 950, 953 (quoting
Harris, 844 F.3d at 1266). This detour from the categorical approach, in favor
of an unfettered, fact-based one, removes the requirement that a sentencing
court be “certain” that a violent-felony designation necessarily applies to a
particular offense before it can be treated as an ACCA predicate. Mathis, 136
S. Ct. at 2257 (discussing the ACCA’s demand for certainty); Shepard v.
United States, 544 U.S. 13, 21-22 (2005) (same).
Garcia is in direct conflict with longstanding decisions by this Court. It
stands as an exception to the uniform reasoning of those cases. The Court
should overrule Garica. It also should find New Mexico robbery does not
require the force necessary to implicate the force clause and that the ACCA
cannot apply to Manzanares.

21

B. A criminal offense that can be committed with a mens rea of
recklessness does not qualify as a violent felony under the
ACCA.
The Tenth Circuit’s precedent incorrectly holds that a criminal offense
committed recklessly is a ‘violent felony.’ In Manzanares, 956 F.3d at 1227,
the court reaffirmed earlier decisions that New Mexico aggravated assault so
defined falls within the ACCA force clause. The court’s decisions inaccurately
describe New Mexico law and are inconsistent with this Court’s precedent.
A “violent felony” is a crime that has as an element the “use of physical
force against the person of another.” In Leocal v. Ashcroft, 543 U.S. 1, 9
(2004), the Court said the crucial phrase is “against the person of another.”
Including reckless offenses does not give effect to the element’s plain
meaning. When a person uses force recklessly, he is indifferent to whether it
falls on another person or not. Reckless conduct falls outside the force clause.
This explains why New Mexico aggravated assault with a deadly weapon
is not a violent felony: the state is “not required to prove any threat – or any
conduct at all – directed toward the [victim].” State v. Branch, 417 P.3d 1141,
1149 (N.M. Ct. App. 2018). “Liability under the statute is only limited by the
requisite mental state of conscious wrongdoing and by the requirement that
the victim’s fear must be reasonable.” Id. at 1148.
Conscious wrongdoing relates to the act itself, irrespective of its
relationship to the victim. The Branch court acknowledged reckless action
established guilt, citing a dissenting Tenth Circuit judge’s conclusion that in
New Mexico “‘a person who intentionally handles a weapon in a manner that
induces fear of battery can be guilty of assault even if he merely wants to
show off his dexterity in handling the weapon, without any interest in
inducing fear.’” 417 P.3d at 1148 (quoting Ramon Silva, 608 F.3d at 675)
22

(Hartz, J., dissenting). Consequently, New Mexico aggravated assault with a
deadly weapon does not have the critical “against the person of another”
element and is not a violent felony under the ACCA.
1. At a minimum, the Court should hold this petition pending
disposition of Borden v. United States, No. 19-5410, which will
decide whether a criminal offense that can be committed with
a mens rea of recklessness can qualify as a “violent felony”
under the ACCA, and then grant this petition, vacate the
judgment, and remand for reconsideration in light of that
decision (GVR).
After Manzanares filed his reply brief but before the Tenth Circuit issued
its published decision, this Court granted Charles Borden Jr.’s petition for
writ of certiorari. Borden v. United States, No. 19-5410 (Mar. 2, 2020). For
the reasons given above, the Court should grant Manzanares’ certiorari
petition as well, particularly because this would be a valuable companion case
to Borden given the similarity of the issues.
At a minimum, however, the Court should hold this petition pending
disposition of Borden and then grant the petition, vacate the judgment, and
remand for reconsideration in light of that decision. “A GVR is appropriate
when intervening developments” – like a new opinion from this Court –
“reveal a reasonable probability that the decision below rests upon a premise
that the lower court would reject if given the opportunity for further
consideration, and where it appears that such a redetermination may
determine the ultimate outcome of the matter.” Wellons v. Hall, 558 U.S.
220, 225 (2010) (per curiam) (citing Lawrence v. Chater, 516 U.S. 163, 167
(1996) (per curiam)) (quotation marks omitted). “This practice has some
virtues. In an appropriate case, a GVR order conserves the scarce resources
of this Court that might otherwise be expended on plenary consideration,
assists the court below by flagging a particular issue that it does not appear
23

to have fully considered, assists this Court by procuring the benefit of the
lower court's insight before [it] rules on the merits, and alleviates the
potential for unequal treatment that is inherent in [its] inability to grant
plenary review of all pending cases raising similar issues[.]” Lawrence, 516
U.S. at 167 (quotation marks omitted). This flexible approach “can improve
the fairness and accuracy of judicial outcomes while at the same time serving
as a cautious and deferential alternative to summary reversal in cases whose
precedential significance does not merit [the Court’s] plenary review.” Id. at
168.
Here, “the equities of the case” support a GVR order if the Court does not
grant plenary review. Lawrence, 516 U.S. at 167-68. Regardless of the
outcome in Borden, the Court’s decision will necessarily delve into the mens
rea requirements of the ACCA’s force clause in general and in particular, the
minimum degree of intent expected for an offense to come within the force
clause. A GVR will therefore “assist[]” the Tenth Circuit “by flagging a
particular issue that it does not appear to have fully considered[.]” Id. at 167.
If the Court holds that the force clause does not cover crimes that are
committed with a mens rea of mere recklessness, then Manzanares’ New
Mexico aggravated assault conviction, which requires only conscious
wrongdoing, a lesser mental state than recklessness, cannot be a violent
felony. But even if the Court reaches the opposite conclusion, there is still a
“reasonable probability” that its decision would cause the Tenth Circuit to
change its ruling in the criminal-case context “if given the opportunity for
further consideration[.]” Wellons, 558 U.S. at 225 (quotation marks omitted).
The court would have to examine whether inattention to the consequences of
one’s acts, a component of New Mexico aggravated assault, meets the force
24

clause’s mens rea threshold as described by this Court in Borden. See NMRA
Crim. UJI 14-306 (state must prove defendant’s unlawful conduct caused
victim to reasonably believe defendant was about to intrude on his personal
safety). Accordingly, the Court should GVR, at a minimum.
C. New Mexico aggravated battery, which can be completed by the
slightest offensive touch, is focused on the resulting harm to the
person not the force behind the unlawful touching, and so does
not categorically include an element of violent physical force as
described by this Court in Johnson I.
Under N.M. Stat. Ann. § 30-3-5(A), “[a]ggravated battery consists of the
unlawful touching or application of force to the person of another with intent
to injure that person or another.” In New Mexico, that element can be
satisfied with proof of mere touching, however slight. State v. Seal, 76 N.M.
461, 461 (1966). That type of touching falls outside of Johnson I’s definition
of “physical force” because as that phrase is used in the ACCA it means a
“substantial degree of force.” 559 U.S. at 140.
The battery element is not measured by the physical harm done; it is the
unlawfulness of even the slightest touch that matters. In other words, the
force of the touch and its consequences are secondary because without the
touch one cannot commit a battery. Injury is not a necessary element, nor is
contact with the person’s body. State v. Ortega, 113 N.M. 437, 440-41 (Ct.
App. 1992). Because aggravated battery subsumes battery, in New Mexico
unlawful touching, however slight, can never meet the ACCA’s level of force.
To illustrate, if you grab a driver through an open truck window to keep
him from leaving, you commit battery. Cf. State v. Hill, 131 N.M. 195, 198,
200 (Ct. App. 2001) (analyzing if driver instigated battery or was a victim
when officer struck driver’s arm while truck in gear and drew weapon to keep
him from driving off). Perhaps your grab seems to be done with an intent to
25

injure. If so, it becomes an aggravated battery. The same grab may result in
the driver losing control and crashing the truck or hitting someone - now
there are felony aggravated battery charges. Arguably, the same is true if
you grab an officer’s baton, “flashlight or weapon” instead of an arm, and spin
him around, “causing the officer to fall . . . out a window, into a mine shaft, off
a ship, or out of an airplane . . . .” Ortega, 113 N.M. at 441.8 Yet, the actus
reus is still the unlawful touch, not the possibilities it creates.
According to the Tenth Circuit, so long as physical pain or injury is caused,
the movement or action that set in motion the events which caused the harm
categorically qualifies as Johnson I defined physical force. Ontiveros, 875
F.3d at 536; accord Manzanares, 956 F.3d at 1228. This ruling is inconsistent
with Johnson I. This Court did not find that the word “physical” in the
phrase “physical force” relates to the effect of the force used. It explained that
“physical” refers to the mechanism by which the force is imparted to the
“person of another.” 550 U.S. 140-41. To relate physical force to its effect
adds nothing to the force clause definition.
By definition then, it is fundamentally incorrect to assume, as the Tenth
Circuit does, that any causation of physical harm, even when done by
omission, is accomplished only by the use of violent physical force. Ontiveros,
875 F.3d 538. De minimus force, like mere touching, however slight, does not
match the description of “physical force” because it is not violent. While a
variety of unwanted touching would come within New Mexico’s aggravated
8

Another may kick a cane out from under someone who needs it to walk or stand

and the fall causes serious injury. Ortega, 113 N.M. at 440 (commenting that
contact with another’s cane, or paper or any other object held in that person’s hand
may constitute a battery).

26

battery statute, none require the use of Johnson I level physical force to cause
harm. Moreover, such harm will not categorically be caused by violent
physical force, if the statute’s elements do not require it. In New Mexico, no
element of aggravated battery calls for proof that the accused used violent,
physical force to cause or potentially cause harm to another. An unlawful
touch can be the means by which the injury occurs. For an offense to come
within the force clause, the result is not the determinative factor, the
strength of the force is the important point.
The Tenth Circuit insists an offense like New Mexico aggravated battery
comes within the force clause because in Castleman this Court “specifically
rejected the contention that ‘one can cause bodily injury without the use of
physical force.’” Ontiveros, 875 F.3d at 536 (quoting Castleman, 572 U.S. at
170); accord Manzanares, 956 F.3d at 1228. Ontiveros cannot rely on
Castleman for a holding it did not make. Castleman has nothing to do with
the characterization of violent felonies. Not only have other circuit courts
concluded just that, so too did Castleman.
There the Court expressly disavowed any intent to upset the circuits’
understanding of the ACCA and its definition of violent felony. 572 U.S. at
164 n.4. “Courts of Appeals have generally held that mere offensive touching
cannot constitute the ‘physical force’ necessary to a ‘crime of violence.’” Id.
“Nothing in today’s opinion casts doubt on these holdings, because . . .
‘domestic violence’ encompasses a range of force broader than that which
constitutes ‘violence’ simpliciter.” Id. Castleman was clear that it was not
addressing “force” under Johnson I’s definition, but rather was interpreting a
wholly different statutory phrase. Id.

27

“By its express terms, Castleman’s analysis is not applicable to the
physical force requirement for a crime of violence, which suggests a category
of violent, active crimes that have as an element a heightened form of
physical force that is narrower in scope than that applicable in the domestic
violence context,” said United States v. Rico-Mejia, 859 F.3d 318, 322 (5th Cir.
2017) (internal quotations omitted). The First Circuit, like the Fourth and
Fifth, also recognized that Castleman did not alter the definition of force that
applies in the ACCA context. The court commented that “[p]hysical force can
mean different things depending on the context in which it appears.” Whyte
v. Lynch, 807 F.3d 463, 470 (1st Cir. 2015). It then held that the context
addressed in Castleman, the Domestic Violence Gun Ban, can “be satisfied by
a ‘mere offensive touching’ – a standard that casts a far wider net in the sea
of state crime predicates than does Johnson’s requirement of ‘violent force.’”
Id. at 471. Therefore, irrespective of Castleman, the court found that a
Connecticut assault statute that, like New Mexico, can involve causing
physical injury, did not require violent physical force. Id. at 471. Given the
sound reasoning in these opinions, it is difficult to accept that Castleman
expressly begot Ontiveros.
In Johnson I, this Court explicitly held that the slightest offensive
touching is insufficient to make an offense a violent felony under the felony
force clause. 559 U.S. at 139-40. In contrast to the misdemeanor force clause
Castleman addressed, the felony force clause addressed in Johnson I requires
violent force – that is, a level of force more active and severe than the force
required to commit common-law battery. Id. Ontiveros failed to honor this
distinction and therefore, stands in direct conflict with this Court’s authority.
It must be overruled.
28

In the Tenth Circuit before Ontiveros, pain or injury alone did not
categorically mean violent physical force was used to commit the offense.
United States v. Perez-Vargas, 414 F.3d 1282, 1285-86 (10th Cir. 2005)
(Colorado third degree assault requiring proof accused “knowingly or
recklessly cause[d] bodily injury to another” did not “necessarily require[] the
application of force.”); United States v. Rodriguez-Enriquez, 518 F.3d 1191,
1195 (10th Cir. (assault statute which forbids nonconsensual administration
of a drug, substance or preparation does not involve use of physical force).
Perez-Vargas and Rodriguez-Enriquez are consistent with the Court’s
precedent, Ontiveros is not. They, not Ontiveros, should be binding precedent.
If that were so, then the result here is apparent: New Mexico aggravated
battery is not a violent felony. An unwanted touch is the only force required
to complete the offense. And the accused will not necessarily have used
violent physical force in the touch, even though it is unlawful. See e.g.
Ortega, 113 N.M. at 440 (commenting that contact with another’s cane, or
paper or any other object held in that person’s hand may constitute a
battery); State v. Chavez, 82 N.M. 569, 571 (Ct. App. 1971)(“defendant’s act
need not be a direct (that is, immediate) cause” of harm or the likely harm to
another). The great bodily harm that results or that could have been inflicted
is enough for a jury to find the accused guilty of aggravated battery. See
Chavez, 82 N.M. at 572 (whether an aggravated battery rises to a felony
“depends largely . . . on the nature of the injury inflicted.”). Consequently,
New Mexico aggravated battery does not match the force clause’s definition
and Manzanares’ conviction is not a violent felony.

29

Conclusion
For the reasons given in his petition, Manzanares respectfully requests
this Court grant his petition for writ of certiorari.

Respectfully submitted,
Stephen P. McCue
Federal Public Defender
DATED: September 14, 2020
By:

s/Margaret A. Katze
Margaret A. Katze*
Federal Public Defender
Attorneys for the Petitioner
* Counsel of Record

30

Appendix
Tenth Circuit’s Published Decision, United States v. Manzanares , 956
F.3d 1220 (10th Cir. April 17, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
District Court’s Memorandum Opinion and Order Dismissing Manzanares’
Motion Filed Pursuant to 28 U.S.C. § 2255 (December 1, 2017) . . . . . . . 11a
District Court’s Order Issuing Certificate of Appealability
(December 1, 2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45a

United States v. Manzanares, 956 F.3d 1220 (2020)
110k1177.5 Habitual and Second
Offenders
110k1177.5(1) In general

956 F.3d 1220
United States Court of Appeals, Tenth Circuit.

Even if the residual clause of the
definition of violent felony in the
Armed Career Criminal Act (ACCA)
had played a role in defendant's
sentencing after the definition had been
found unconstitutionally vague under due

UNITED STATES of
America, Plaintiff - Appellee,
v.
Archie MANZANARES,
Defendant - Appellant.

process principles in Johnson v. United
States, any error was harmless, with
respect to sentence enhancement, where
defendant's three prior convictions under
state law qualified as violent felonies
under the elements clause of the ACCA's
definition of violent felony. U.S. Const.

No. 18-2010
|
FILED April 17, 2020
Synopsis
Background: Defendant filed motion to vacate
sentence, challenging enhancement of his sentence
under the Armed Career Criminal Act (ACCA). The
United States District Court for the District of New
Mexico, William P. Johnson, Chief Judge, 2017 WL
5956886, adopted the report and recommendation of
Stephan M. Vidmar, United States Magistrate Judge,
2017 WL 3913235, and denied the motion. Defendant
appealed.

Amend. 5;
(i).

[2]

18 U.S.C.A. § 924(e)(2)(B)

Criminal Law

Review De Novo

Criminal Law
relief

Post-conviction

110 Criminal Law
110XXIV Review
110XXIV(L) Scope of Review in General
110XXIV(L)13 Review De Novo
110k1139 In general
110 Criminal Law
110XXIV Review
110XXIV(O) Questions of Fact and
Findings
110k1158.36 Post-conviction relief

[Holding:] The Court of Appeals, Briscoe, Circuit
Judge, held that minimum culpable conduct required
for New Mexico conviction for armed robbery
categorically fit the definition of physical force for
purposes of the elements clause of the ACCA's
definition of violent felony.

The Court of Appeals reviews a district
court's legal rulings on a motion to vacate
sentence de novo and reviews its findings

Affirmed.
Procedural Posture(s): Appellate Review; PostConviction Review.

of fact for clear error.
2255.

28 U.S.C.A. §

West Headnotes (15)
[3]
[1]

Criminal Law
Offenders

Habitual and Second

110 Criminal Law
110XXIV Review
110XXIV(Q) Harmless and Reversible
Error

Criminal Law

Review De Novo

110 Criminal Law
110XXIV Review
110XXIV(L) Scope of Review in General
110XXIV(L)13 Review De Novo
110k1139 In general

Whether a prior conviction satisfies
the definition of violent felony in the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

001a

United States v. Manzanares, 956 F.3d 1220 (2020)

Armed Career Criminal Act (ACCA), for
purposes of sentence enhancement, is a
legal question that is reviewed de novo.

350HVI(C) Offenses Usable for
Enhancement
350HVI(C)1 In General
350Hk1261 Violent or Nonviolent
Character of Offense
350Hk1262 In general

18 U.S.C.A. § 924(e)(2)(B).

[4]

“Physical force,” within the meaning of
the elements clause of the Armed Career
Criminal Act (ACCA), which defines a
violent felony, for purposes of sentence
enhancement based on a prior violent
felony, as an offense having as an element
the use, attempted use, or threatened
use of physical force against the person
of another, means violent force, that is,
force capable of causing physical pain or

Sentencing and
Punishment
Burden of proof
350H Sentencing and Punishment
350HVI Habitual and Career Offenders
350HVI(K) Proceedings
350Hk1375 Evidence
350Hk1378 Burden of proof

The government bears the burden of
proving that a prior conviction qualifies as
a violent felony under the Armed Career
Criminal Act (ACCA), for purposes of
sentence enhancement.
924(e)(2)(B).

[5]

18 U.S.C.A. §

Sentencing and
Punishment
Violent or Nonviolent
Character of Offense
350H Sentencing and Punishment
350HVI Habitual and Career Offenders
350HVI(C) Offenses Usable for
Enhancement
350HVI(C)1 In General
350Hk1261 Violent or Nonviolent
Character of Offense
350Hk1262 In general

Under the categorical approach to
determining whether a prior felony
qualifies as a violent felony under the
Armed Career Criminal Act (ACCA), for
purposes of sentence enhancement, the
court focuses on the elements of the
crime for the prior conviction, not the
underlying facts.
(2)(B).

[6]

injury to another person.
§ 924(e)(2)(B)(i).

18 U.S.C.A. § 924(e)

Sentencing and
Punishment
Violent or Nonviolent
Character of Offense

18 U.S.C.A.

1 Cases that cite this headnote
[7]

Sentencing and
Punishment
Violent or Nonviolent
Character of Offense
350H Sentencing and Punishment
350HVI Habitual and Career Offenders
350HVI(C) Offenses Usable for
Enhancement
350HVI(C)2 Offenses in Other
Jurisdictions
350Hk1283 Violent or Nonviolent
Character of Offense
350Hk1284 In general

When construing the minimum culpable
conduct required for a state conviction,
when determining whether the state
offense categorically fits the definition
of physical force, so that a defendant's
prior conviction for the offense qualifies
as a violent felony under the elements
clause of the definition of violent felony in
the Armed Career Criminal Act (ACCA),
the minimum culpable conduct includes
only conduct for which there is a realistic
probability, not a theoretical possibility,
that the state statute would apply.
U.S.C.A. § 924(e)(2)(B)(i).

18

350H Sentencing and Punishment
350HVI Habitual and Career Offenders

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

002a

United States v. Manzanares, 956 F.3d 1220 (2020)

[8]

Sentencing and
Particular offenses
Punishment
350H Sentencing and Punishment
350HVI Habitual and Career Offenders
350HVI(C) Offenses Usable for
Enhancement
350HVI(C)2 Offenses in Other
Jurisdictions
350Hk1283 Violent or Nonviolent
Character of Offense
350Hk1285 Particular offenses

1 Cases that cite this headnote
[10]

106 Courts
106II Establishment, Organization, and
Procedure
106II(G) Rules of Decision
106k88 Previous Decisions as Controlling
or as Precedents
106k90 Decisions of Same Court or CoOrdinate Court
106k90(2) Number of judges concurring
in opinion, and opinion by divided court

The minimum culpable conduct required
for a New Mexico conviction for armed
robbery categorically fit the definition of
physical force, so that the defendant's
prior conviction for the offense qualified
as a violent felony under the elements
clause of the definition of violent felony in
the Armed Career Criminal Act (ACCA);
force that overcame the victim's resistance
would be required for a conviction for
simple robbery under the New Mexico
statute, and because simple robbery
satisfied the elements clause, armed
robbery necessarily satisfied it.
18
U.S.C.A. § 924(e)(2)(B)(i); N.M. Stat.
Ann. § 30-16-2.

When a panel of the Court of Appeals
has rendered a decision interpreting
state law, that interpretation is binding
on subsequent panels of the Court of
Appeals, unless an intervening decision of
the state's highest court has resolved the
issue.

[11]

A panel of the Court of Appeals cannot
overrule the judgment of another panel,
and it is bound by the precedent of prior
panels absent en banc reconsideration by
the Court of Appeals or a superseding
contrary decision by the Supreme Court.

Force

Under New Mexico law, robbery is
committed when attached property is
snatched or grabbed by sufficient force
so as to overcome the resistance of
attachment, but it is not committed by
a mere snatching without any resistance
from the victim. N.M. Stat. Ann. §
30-16-2.

Courts
Number of judges
concurring in opinion, and opinion by
divided court
106 Courts
106II Establishment, Organization, and
Procedure
106II(G) Rules of Decision
106k88 Previous Decisions as Controlling
or as Precedents
106k90 Decisions of Same Court or CoOrdinate Court
106k90(2) Number of judges concurring
in opinion, and opinion by divided court

Robbery
342 Robbery
342k6 Force

3 Cases that cite this headnote
[9]

Number of judges
Courts
concurring in opinion, and opinion by
divided court

1 Cases that cite this headnote
[12]

Criminal Law
Certificate of
probable cause or reasonable doubt
110 Criminal Law
110XXIV Review
110XXIV(F) Proceedings, Generally
110k1073 Certificate of probable cause or
reasonable doubt

To make a substantial showing of
the denial of a constitutional right, as
required for a certificate of appealability

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

003a

United States v. Manzanares, 956 F.3d 1220 (2020)

Given the similarity in language between
the elements clauses of the Armed Career
Criminal Act (ACCA) and the Sentencing
Guidelines defining “violent felony”
and “crime of violence,” respectively,
courts may look to precedent under one
provision for guidance under another
in determining whether a conviction
qualifies as a violent felony or a crime of

(COA) from the denial of a motion
to vacate sentence, a defendant must
demonstrate that reasonable jurists would
find the district court's assessment of the
constitutional claims debatable or wrong.
28 U.S.C.A. §§ 2253(c)(2),

[13]

2255.

Criminal Law
Certificate of
probable cause or reasonable doubt
110 Criminal Law
110XXIV Review
110XXIV(F) Proceedings, Generally
110k1073 Certificate of probable cause or
reasonable doubt

In light of binding circuit precedent,
no reasonable jurist could debate, as
would be required for certificate of
appealability (COA) from denial of
motion to vacate sentence, the district
court's conclusion that defendant's prior
New Mexico conviction for aggravated
assault with a deadly weapon satisfied
the elements clause of the definition
of violent felony in the Armed Career
Criminal Act (ACCA), for sentence
enhancement purposes; while the New
Mexico offense was a general intent
crime, it required unlawfully assaulting
or striking at another by employing a
deadly weapon, and such conduct at
least threatened the use of physical force

[14]

violence.
(i);

[15]

18 U.S.C.A. § 924(e)(2)(B)

U.S.S.G. § 4B1.2(a)(1).

Criminal Law
Allowance or leave
from appellate court
110 Criminal Law
110XXIV Review
110XXIV(F) Proceedings, Generally
110k1072 Allowance or leave from
appellate court

against the person of another.
18
U.S.C.A. § 924(e)(2)(B)(i); 28 U.S.C.A.

In light of binding circuit precedent,
no reasonable jurist could debate, as
would be required for certificate of
appealability (COA) from denial of
motion to vacate sentence, the district
court's conclusion that defendant's prior
New Mexico conviction for aggravated
battery satisfied the elements clause of
the definition of violent felony in the
Armed Career Criminal Act (ACCA), for
sentence enhancement purposes; while
the New Mexico statute focused on
the resulting harm to the person, an
offender could not cause bodily injury

§§ 2253(c)(2),
§ 30-3-2(A).

18
without the use of physical force.
U.S.C.A. § 924(e)(2)(B)(i); 28 U.S.C.A.

2255; N.M. Stat. Ann.

Courts
Previous Decisions as
Controlling or as Precedents
106 Courts
106II Establishment, Organization, and
Procedure
106II(G) Rules of Decision
106k88 Previous Decisions as Controlling
or as Precedents
106k89 In general

§§ 2253(c)(2),
§ 30-3-5(C).

2255; N.M. Stat. Ann.

1 Cases that cite this headnote

*1222 Appeal from the United States District
Court for the District of New Mexico (D.C. Nos.
1:16-CV-00599-WJ-SMV & 1:12-CR-01563-WJ-1)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

004a

United States v. Manzanares, 956 F.3d 1220 (2020)

Attorneys and Law Firms
Margaret A. Katze, Assistant Federal Public Defender,
Office of the Federal Public Defender for the District of
New Mexico, Albuquerque, New Mexico, appearing
for Appellant.
C. Paige Messec, Assistant United States Attorney
(John C. Anderson, United States Attorney, with her on
the briefs), Office of the United States Attorney for the
District of New Mexico, Albuquerque, New Mexico,
appearing for Appellee.
Before BRISCOE, KELLY, and CARSON, Circuit
Judges.
Opinion
BRISCOE, Circuit Judge.
*1223

Defendant-Appellant Archie Manzanares

28
appeals from the district court's denial of his
U.S.C. § 2255 motion challenging his sentence under
the Armed Career Criminal Act (ACCA). Because
the district court granted a certificate of appealability
(COA) as to one issue, we exercise jurisdiction under
28 U.S.C. § 2253. We affirm the denial of relief and
deny Mr. Manzanares's motion to expand the COA.

I
On April 1, 2013, Mr. Manzanares pleaded guilty
to being a felon in possession of a firearm, in
violation of
18 U.S.C. §§ 922(g)(1) and
924(a)
(2), and to possession of a controlled substance, in
violation of
21 U.S.C. § 844. ROA, Vol. II at 11.
His plea agreement provided for a 15-year sentence
if the district court determined he was an armed
career criminal. Id. at 12. On July 2, 2013, after
concluding that Mr. Manzanares had at least three
prior violent felonies and thus qualified as an armed
career criminal, the district court imposed the 15-year
sentence contemplated by the plea agreement. Id., Vol.
IV at 5.
Under the ACCA, an offense qualified as a violent
felony by satisfying at least one of three definitions,
which have come to be known as the Elements

Clause, the Enumerated Clause, and the Residual
Clause. See
18 U.S.C. § 924(e)(2)(B);
United
States v. Garcia, 877 F.3d 944, 946 (10th Cir.
2017), cert. denied, ––– U.S. ––––, 139 S. Ct. 1257,
203 L.Ed.2d 294 (2019). After Mr. Manzanares's
conviction was final, the Supreme Court invalidated
the Residual Clause as being unconstitutionally vague,
see
Johnson v. United States, ––– U.S. ––––,
135 S. Ct. 2551, 2557, 2563, 192 L.Ed.2d 569
(2015) (

Johnson II), and then made

Johnson II

applicable to cases on collateral review, see
Welch
v. United States, ––– U.S. ––––, 136 S. Ct. 1257, 1268,
194 L.Ed.2d 387 (2016).
Johnson II-based
§ 2255
[1] In his timely
motion, Mr. Manzanares asserted that without
the Residual Clause, his underlying New Mexico
convictions (armed robbery, aggravated assault with
a deadly weapon, and aggravated battery) no longer
qualified as violent felonies. The district court denied
the motion, concluding that all three underlying
convictions satisfy the Elements Clause. ROA, Vol.
I at 184. It then granted a COA regarding the
armed robbery conviction but denied a COA as
to the other two convictions. 1 Id. at 186–87. Mr.
Manzanares appeals the classification of the armed
robbery conviction as a violent felony, and he seeks to
expand the COA to allow him to appeal the decision
regarding the aggravated assault with a deadly weapon
and aggravated battery convictions.

*1224 II
[2] [3] [4] The district court granted a COA on the
issue of whether armed robbery in violation of N.M.
Stat. Ann. § 30-16-2 satisfies the Elements Clause.
We review the district court's legal rulings on a
§
2255 motion de novo and its findings of fact for
clear error.
Garcia, 877 F.3d at 947–48. Whether
a prior conviction satisfies the ACCA's violent felony
definition is a legal question we review de novo. Id.
at 948. The government bears the burden of proving a
prior conviction qualifies under the ACCA.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

Id.

5

005a

United States v. Manzanares, 956 F.3d 1220 (2020)

[5]
[6] To determine this issue, we apply the
assigned in
Johnson I” as it “has an element the
“categorical approach,” focusing on the elements of
use or threatened use of physical force against another
the crime of conviction, not the underlying facts. Id.
Garcia, 877 F.3d at 956. In concluding
person.”
The Elements Clause provides that a conviction is
that robbery under § 30-16-2 “is a violent felony under
a “violent felony” if it “has as an element the use,
id., we emphasized
the ACCA's Elements Clause,”
attempted use, or threatened use of physical force
that the “mere[ ] snatching [of property] without any
18 U.S.C. § 924(e)
against the person of another.”
resistance from the victim would not” satisfy “the
(2)(B)(i). “[T]he phrase ‘physical force’ means violent
element of force for robbery” under the New Mexico
force—that is, force capable of causing physical pain
statute,
id. at 954 (citing
State v. Curley, 123
Johnson v. United
or injury to another person.”
N.M. 295, 939 P.2d 1103, 1105 (N.M. Ct. App. 1997))
States, 559 U.S. 133, 140, 130 S.Ct. 1265, 176 L.Ed.2d
(concluding that “when no more force is used than
would be necessary to remove property from a person
1 (2010) ( Johnson I) (emphasis in original).
who does not resist, then the offense is larceny, and not
[7] We must first identify the minimum “force” robbery”).
required by state law for the crime of conviction,
and second determine if that force categorically fits
Garcia was decided, the Supreme Court
[8] After
the definition of physical force.
United States v.
decided
Stokeling v. United States, ––– U.S. ––––,
Ontiveros, 875 F.3d 533, 535–36 (10th Cir. 2017).
139 S. Ct. 544, 550, 202 L.Ed.2d 512 (2019), which
“When construing the minimum culpable conduct
held that the ACCA's Elements Clause “encompasses
required for a conviction, such conduct only includes
*1225 robbery offenses that require the criminal
that in which there is a realistic probability, not a
to overcome the victim's resistance.” After issuing
theoretical possibility, the state statute would apply.”
Stokeling, the Supreme Court denied certiorari in
Id. at 536 (internal quotation marks omitted).
Garcia. See Garcia v. United States, ––– U.S. ––––,
139
S. Ct. 1257, 203 L.Ed.2d 294 (2019).
N.M. Stat. Ann. § 30-16-2 provides as follows:
Robbery consists of the theft of anything of value
from the person of another or from the immediate
control of another, by use or threatened use of force
or violence.
Whoever commits robbery is guilty of a third degree
felony.
Whoever commits robbery while armed with a
deadly weapon is, for the first offense, guilty
of a second degree felony and, for second and
subsequent offenses, is guilty of a first degree
felony.
After the district court issued its decision in this case,
Garcia, where we considered
this court decided
whether a conviction for third degree robbery under
the same New Mexico robbery statute qualified as
a violent felony under the Elements Clause. We
held that third degree robbery “categorically matches
the definition of ‘physical force’ the Supreme Court

The government contends
Stokeling and
Garcia
control the outcome in this case. Mr. Manzanares
responds that Garcia was wrongly decided and that
New Mexico robbery does not have as an element the
use of physical force as described by
We agree with the government that

Stokeling.
Stokeling and

Garcia are controlling.
[9]
[10] We acknowledge “[w]e cannot overrule
the judgment of another panel of this court. We are
bound by the precedent of prior panels absent en banc
reconsideration or a superseding contrary decision by
the Supreme Court.” In re Smith, 10 F.3d 723, 724
(10th Cir. 1993) (per curiam). Further, “when a panel
of this Court has rendered a decision interpreting state
law, that interpretation is binding on ... subsequent
panels of this Court, unless an intervening decision
of the state's highest court has resolved the issue.”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

006a

United States v. Manzanares, 956 F.3d 1220 (2020)

Wankier v. Crown Equip. Corp., 353 F.3d 862, 866
(10th Cir. 2003).
Garcia held that a conviction for simple robbery
under § 30-16-2 satisfies the Elements Clause,
and, as Mr. Manzanares concedes, interpreted the
statute to require force that overcomes the victim's
resistance. See Aplt. Br. at 21 (“As the
Garcia
panel acknowledged, numerous New Mexico cases
expressly state that ‘any quantum of force which
overcomes resistance would be sufficient to support a
Garcia, 877 F.3d at
robbery conviction.’ ”) (citing
956). If simple robbery satisfies the Elements Clause,
then necessarily armed robbery under the same statute
would satisfy the Elements Clause. We are bound by
Garcia's interpretation of the New Mexico robbery
statute, and we are unpersuaded by Mr. Manzanares's
arguments urging us to reconsider its holdings.
[11] First,
Stokeling is not a superseding
contrary Supreme Court decision. Rather than
undermining

Garcia's result,

Stokeling compels

it.
Stokeling holds that the amount of force
sufficient to overcome a victim's resistance satisfies
Johnson I's force standard.

139 S. Ct. at 555;

see also
United States v. Ash, 917 F.3d 1238,
1242 (10th Cir. 2019), cert. filed, No. 18-9639 (June
12, 2019) (noting, after
Stokeling, that “[t]he line
is drawn, therefore, between robbery that can be
accomplished by the mere snatching of property
and robbery that requires overcoming even slight
victim resistance”). And, as interpreted in
Garcia,
New Mexico's robbery statute distinguishes “robbery”
from “larceny” using a nearly identical standard as
Stokeling: “[R]obbery is committed when attached
property is snatched or grabbed by sufficient force
so as to overcome the resistance of attachment,”
Curley, 939 P.2d at 1105, but it is not committed
by a “mere[ ] snatching ... without any resistance
from the victim,”

Garcia, 877 F.3d at 954. See also

State v. Martinez, 85 N.M. 468, 513 P.2d 402, 402
(N.M. Ct. App. 1973) (affirming robbery conviction

where “there was more than a ‘mere snatching’ ”);
State v. Sanchez, 78 N.M. 284, 430 P.2d 781, 782
(N.M. Ct. App. 1967) (stating that the force used
“must overcome the victim's resistance” and reversing
a robbery conviction because facts were “comparable
to those pickpocket or purse snatching cases”).
To be sure, in

Ash, we noted that the standard

Garcia was “arguably ... different” than
applied in
the standard applied *1226 by the Supreme Court
in
Stokeling. 917 F.3d at 1242 n.5. That is, rather
than determining only whether New Mexico robbery
requires force to overcome a victim's resistance,
Garcia drew a different line: whether the New
Mexico statute requires “the use of any physical force”
to overcome the victim's resistance or something
“more than minimal actual force.”

877 F.3d at

950 (emphasis in original). But
Stokeling held
that either of these readings of New Mexico law
would satisfy Johnson I, concluding that any “force
necessary to overcome a victim's physical resistance
is inherently ‘violent’ in the sense contemplated by
Johnson.”

139 S. Ct. at 553. Thus,

does not undermine

Stokeling

Garcia's result. 2

Moreover, because there has been no intervening
change in state law, we are bound by
Garcia's
interpretation of New Mexico's robbery statute. See
Wankier, 353 F.3d at 866. Mr. Manzanares argues
that a post- Garcia state law decision, State v.
Barela, No. A-1-CA-34945, 2018 WL 4959122, at *2
(N.M. Ct. App. Sept. 4, 2018), illustrates that New
Mexico robbery can be perpetrated without any use,
attempted use, or explicit threats of force. Aplt. Rep.
Br. at 5. In Barela, the New Mexico Court of Appeals
upheld the defendant's robbery conviction because the
evidence showed the defendant had uttered threats of
violence, which satisfied the state's obligation to show
that the defendant took the purse by threatened force or
violence. See id. Because Barela required a threatened
use of violence to uphold a robbery conviction, it
likewise does not undermine

Garcia. 3

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

007a

United States v. Manzanares, 956 F.3d 1220 (2020)

Given
Stokeling's holding that force which
overcomes a victim's resistance is violent force, and
Garcia's holding that New Mexico's robbery statute
requires that level of force, we affirm the district court's
conclusion that Mr. Manzanares's New Mexico armed
robbery conviction satisfies the Elements Clause.

III
[12] Mr. Manzanares has also moved to expand
the COA to address his other two underlying prior
convictions. A COA *1227 requires “a substantial
showing of the denial of a constitutional right,” 28
U.S.C. § 2253(c)(2), meaning that Mr. Manzanares
“must demonstrate that reasonable jurists would find
the district court's assessment of the constitutional
claims debatable or wrong,”
Slack v. McDaniel,
529 U.S. 473, 484, 120 S.Ct. 1595, 146 L.Ed.2d 542
(2000).

Court of Appeals decision,

State v. Branch, 417

P.3d 1141 (N.M. Ct. App. 2018) (

Branch II),

Branch II holds that aggravated assault
because
does not require a specific intent to use a deadly
weapon “against the person of another.” But Branch
II's holding that aggravated assault is a generalintent crime did not alter the state of the law.
Rather, as
Ramon Silva recognized, “aggravated
assault does not require proof of a specific intent to
assault the victim, or of a specific intent to injure
or even frighten the victim[; thus confirming] that
aggravated assault is not a specific intent crime,
but rather is a general intent crime.”
608 F.3d
at 673 (brackets, citations, and internal quotation
marks omitted). The offense is a violent felony
because it requires “unlawfully assaulting or striking
at another,” § 30-3-2(A), employing a deadly weapon,
Maldonado-Palma, 839 F.3d at 1250, with general

Ramon Silva, 608 F.3d at 673,
criminal intent, see
all of which we have held at least threaten the use
of physical force against the person of another. Given
A
this court's binding precedent, no reasonable jurist
[13] [14] One of Mr. Manzanares's prior convictions could debate the district court's conclusion that Mr.
Manzanares's New Mexico conviction for aggravated
is for aggravated assault with a deadly weapon, in
assault with a deadly weapon satisfies the Elements
violation of N.M. Stat. Ann. § 30-3-2(A). Under N.M.
Clause.
Stat. Ann. § 30-3-2(A), “[a]ggravated assault consists
of ... unlawfully assaulting or striking at another with
a deadly weapon.” This court has twice held that §

30-3-2(A) satisfies the Elements Clause. See United
States v. Maldonado-Palma, 839 F.3d 1244, 1250
(10th Cir. 2016) (holding § 30-3-2(A) is categorically
a crime of violence under the Elements Clause of
United States Sentencing Guidelines Manual §
2L1.2); 4
United States v. Ramon Silva, 608 F.3d
663, 674 (10th Cir. 2010) (holding § 30-3-2(A) is
categorically a violent felony under the Elements
Clause), abrogated on other grounds by
Mathis v.
United States, ––– U.S. ––––, 136 S. Ct. 2243, 195
L.Ed.2d 604 (2016).
Mr. Manzanares argues that

Maldonado-Palma

B
[15] Mr. Manzanares's other prior conviction is for
aggravated battery, in violation of N.M. Stat. Ann. §
30-3-5(C). N.M. Stat. Ann. § 30-3-5 states:
A. Aggravated battery consists of the unlawful
touching or application of force to the person of
another with intent to injure that person or another.
B. Whoever commits aggravated battery, inflicting
an injury to the person *1228 which is not likely
to cause death or great bodily harm, but does cause
painful temporary disfigurement or temporary loss
or impairment of the functions of any member or
organ of the body, is guilty of a misdemeanor.

and
Ramon Silva were wrongly decided and that
they are undermined by a subsequent New Mexico

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

008a

United States v. Manzanares, 956 F.3d 1220 (2020)

C. Whoever commits aggravated battery inflicting
great bodily harm or does so with a deadly weapon
or does so in any manner whereby great bodily harm
or death can be inflicted is guilty of a third degree
felony.

1405). Thus, in
Ontiveros, we concluded that
Colorado second-degree assault is a crime of violence,
even though the crime's elements “focus on the
result of the conduct (serious bodily injury), not the
conduct itself.”

Id. (holding that “

Perez-Vargas

Mr. Manzanares argues that a conviction under §

and

30-3-5(C) does not categorically require Johnson Ilevel force because “New Mexico aggravated battery
is focused on the resulting harm to the person[,] not
the force behind the unlawful touching.” Aplt. Br.
at 57. For this proposition, Mr. Manzanares relies

is no longer viable in light of

on

Castleman.
and the Supreme Court's ruling in
The district court's conclusion that Mr. Manzanares's
conviction under § 30-3-5(C) satisfies the Elements
Clause is not reasonably debatable.

United States v. Perez-Vargas, 414 F.3d 1282

(10th Cir. 2005), and
United States v. RodriguezEnriquez, 518 F.3d 1191 (10th Cir. 2008). Aplt. Br. at
54.
However, we expressly overruled

United States v. Castleman, 572 U.S. 157, 134 S.Ct.
1405, 188 L.Ed.2d 426 (2014). The Supreme Court
in
Castleman “specifically rejected the contention
that ‘one can cause bodily injury without the use

(quoting

Manzanares contends that

Ontiveros, 875 F.3d at 536

Castleman, 572 U.S. at 170, 134 S.Ct.

Castleman”). Mr.

Rodriguez-Enriquez and

Perez-Vargas “should remain binding precedent,”
Aplt. Br. at 57, but we are bound by

Rodriguez-

Enriquez and
Perez-Vargas in
United States
v. Ontiveros, 875 F.3d 533, 536 (10th Cir. 2017),
citing and relying on the Supreme Court's decision in

of physical force.’ ”

Rodriguez-Enriquez relied on reasoning that

Ontiveros

IV
We affirm the district court's denial of Mr.
Manzanares's
§ 2255 motion, deny his motion to
expand the COA, and deny as moot the government's
motion for summary affirmance.
All Citations
956 F.3d 1220

Footnotes
1

The district court did not require Mr. Manzanares to show that the Residual Clause played a
role in his sentencing. See
United States v. Snyder, 871 F.3d 1122, 1130 (10th Cir. 2017)
(affirming denial of relief where the defendant was sentenced under the Enumerated Clause,
rather than the Residual Clause). We need not determine what effect the Residual Clause had
at sentencing, however, because any error in applying the Residual Clause would be harmless,
as the government has shown that Mr. Manzanares has three convictions that qualify as violent
felonies under the Elements Clause. See

United States v. Driscoll, 892 F.3d 1127, 1135–36

(10th Cir. 2018) (stating a
Johnson II error would be harmless if the defendant has three valid
predicate convictions to support an ACCA sentence).
2

Mr. Manzanares also relies on our postF.3d 1252 (10th Cir. 2019), but

Stokeling decision in

United States v. Bong, 913

Bong involved a different state statute than the one at issue

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

009a

United States v. Manzanares, 956 F.3d 1220 (2020)

here. In
Bong, we concluded that a conviction under Kansas's robbery statute did not qualify
as a violent felony because Kansas law, in contrast with that of New Mexico, permits a defendant
to be convicted of violating the statute without any resistance by or injury to the victim.
913
F.3d at 1262, 1264. In other words, Kansas robbery falls on the other side of the “snatching” line.
3

Even if we were not bound by
Garcia's interpretation of New Mexico's robbery statute, we
would conclude that the statute, as applied by New Mexico courts, requires force that overcomes
the victim's resistance rather than the mere snatching of property. See

Curley, 939 P.2d at

1105;
Martinez, 513 P.2d at 402;
Sanchez, 430 P.2d at 782; see also
State v. Bernal,
140 N.M. 644, 146 P.3d 289, 296 (2006) (noting that robbery is “distinct from larceny because
it requires, and is designed to punish, the element of force”). Mr. Manzanares, however, points
to State v. Clokey, 89 N.M. 453, 553 P.2d 1260, 1260 (1976), where the New Mexico Supreme
Court held that “the evidence supported the verdict of the jury that the snatching of the purse
was accompanied by force sufficient to convert the crime from larceny to robbery.” But the New
Mexico Court of Appeals, in its post-Clokey decisions, has not interpreted Clokey as requiring an

4

amount of force less than necessary to overcome a victim's resistance. See, e.g.,
Curley, 939
P.2d at 1105 (noting that “the issue in [Clokey] was not whether there was evidence justifying a
lesser-included-offense instruction [of larceny]”).
Given the “similarity in language between the ACCA and [the Sentencing Guidelines]” defining
“violent felony” and “crime of violence,” respectively, we may “look[ ] to precedent under one
provision for guidance under another in determining whether a conviction qualifies as a violent
felony.”

Ramon Silva, 608 F.3d at 671 (quotations omitted).

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

010a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 1 of 34

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
UNITED STATES OF AMERICA,
Plaintiff,
v.

No.

ARCHIE MANZANARES,

12-cr-1563 WJ
16-cv-0599 WJ/SMV

Defendant.
ORDER ADOPTING MAGISTRATE JUDGE’S
PROPOSED FINDINGS AND RECOMMENDED DISPOSITION
THIS MATTER is before the Court on the Magistrate Judge’s Proposed Findings and
Recommended Disposition [CR Doc. 53; CV Doc. 21] (“PF&RD”) issued September 6, 2017.
On reference by the undersigned, [CV Doc. 2], the Honorable Stephan M. Vidmar, United States
Magistrate Judge,1 recommended denying Defendant Archie Manzanares’s Motion to Correct
Sentence Pursuant to 28 U.S.C. § 2255 [CR Doc. 35; CV Doc. 1]. Manzanares objected to the
PF&RD on November 6, 2017. [CR Doc. 57; CV Doc. 25]. On de novo review of the portions
of the PF&RD to which Manzanares objects, the Court will overrule the objections, adopt the
PF&RD, deny Manzanares’s motion, and dismiss case number 16-cv-0599 WJ/SMV with
prejudice.
I. Background
On June 27, 2012, Manzanares was charged via indictment with being a felon in
possession of a firearm/ammunition, in violation of 18 U.S.C. §§ 922(g)(1), 924(e)(1).

1

Throughout his objections, Manzanares refers to Judge Vidmar as a “magistrate.” E.g., [CV Doc. 25] at 1, 2, 15,
16, 21, 23, 26, 28, 31. The appropriate title is “magistrate judge.” See 28 U.S.C. § 636.

1
011a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 2 of 34

Presentence Report (“PSR”) at 4. On April 1, 2013, he was charged via information with
possession of heroin, in violation of 21 U.S.C. § 844(a). Id. He pleaded guilty to both charges
on April 1, 2013. Id. The plea bargain Manzanares negotiated with the government hinged on
whether he qualified as an armed career criminal under the Armed Career Criminal Act
(“ACCA”). If he was found to be an armed career criminal, Manzanares would stipulate to a
sentence of 180 months. Id. If he was found not to be an armed career criminal, Manzanares
would be permitted to withdraw from the plea. Id.
United States Probation and Pretrial Services prepared his PSR. The PSR provided that
Manzanares qualified as an armed career criminal under the ACCA because he had at least three
prior convictions for violent felonies or serious drug offenses. Id. at 7. In applying the ACCA
enhancement, the PSR did not list which prior felony convictions constituted the “violent
felonies” or “serious drug offenses.” Id. Elsewhere in the PSR, however, Manzanares’s prior
felony convictions are listed. Id. at 5. Among them are aggravated assault with a deadly
weapon, aggravated battery, and armed robbery, all in New Mexico. Id. Likewise, the PSR lists
his entire criminal history in a separate section, though it does not indicate which of the offenses
were felonies (as opposed to misdemeanors), or which were relied on as predicate offenses in
applying the ACCA enhancement. See id. at 8–12.
With the armed career criminal enhancement, Manzanares’s offense level was 34. Id.
at 7. Based on a downward adjustment for acceptance of responsibility, his total offense level
was 31, with a criminal history category of VI and a guideline imprisonment range of 188–235
months. Id. at 8, 19. On July 2, 2013, the Court held a sentencing hearing. See [CR Doc. 33].
Neither party objected to the PSR. See id. at 3. The Court accepted the plea agreement and
2
012a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 3 of 34

found that Manzanares qualified as an armed career criminal under the ACCA. Id. at 5. The
Court sentenced him to 180 months’ imprisonment pursuant to the plea agreement.

Id.

Manzanares did not appeal his sentence. The instant case is his first motion under § 2255.
II. Motions under § 2255 and Johnson II
Pursuant to 28 U.S.C. § 2255(a), a “prisoner in custody” pursuant to a federal conviction
may “move the court . . . to vacate, set aside or correct the sentence” if it “was imposed in
violation of the Constitution or laws of the United States.”
In Johnson v. United States (“Johnson II”), 135 S. Ct. 2551, 2557 (2015), the
Supreme Court held that the so-called “residual clause” of the definition of “violent felony” in
the Armed Career Criminal Act (“ACCA”), 18 U.S.C. § 924(e)(2)(B), was unconstitutionally
vague. The ACCA defined “violent felony” as follows:
any crime punishable by imprisonment for a term exceeding one
year . . . that —
(i) has as an element the use, attempted use, or threatened use of
physical force against the person of another; or
(ii) is burglary, arson, or extortion, involves use of explosives, or
otherwise involves conduct that presents a serious potential risk of
physical injury to another.
Id. (emphasis added). The closing words of this definition, italicized above, have come to be
known as the “residual clause.” Subsection (i) is referred to as the “force clause.”
The Court explained that the residual clause left “grave uncertainty” about “deciding
what kind of conduct the ‘ordinary case’ of a crime involves.” Johnson II, 135 S. Ct. at 2557.
That is, the residual clause “denie[d] fair notice to defendants and invite[d] arbitrary enforcement
by judges” because it “tie[d] the judicial assessment of risk to a judicially imagined ‘ordinary
case’ of a crime, not to real-world facts or statutory elements.” Id. Second, the ACCA’s residual
3
013a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 4 of 34

clause left “uncertainty about how much risk it takes for a crime to qualify as a violent felony.”
Id. at 2558. By combining these two indeterminate inquiries, the Court held, “the residual clause
produces more unpredictability and arbitrariness than the Due Process Clause tolerates.” Id. On
that ground it held the residual clause void for vagueness. Id.
Soon thereafter, the Court determined that the ruling in Johnson II was substantive (as
opposed to procedural) and, therefore, had “retroactive effect in cases on collateral review.”
Welch v. United States, 136 S. Ct. 1257, 1268 (2016). Accordingly, Welch opened the door for
individuals sentenced under the residual clause of the ACCA’s violent-felony definition to move
to vacate their sentences as unconstitutional under § 2255.
III. Judge Vidmar found that Manzanares’s prior convictions qualified as
violent felonies irrespective of the now-invalidated residual clause
and recommended that his motion be denied.
Manzanares had at least three prior felony convictions that were determined to qualify as
violent felonies under § 924(e)(2)(B) of the ACCA, triggering that provision’s sentencing
enhancement.2 See PSR at 5, 7; [CR Doc. 2] at 1. Manzanares challenged the application of the
ACCA sentencing enhancement. He argued that the government had waived the right to argue
that certain of his prior convictions qualified as violent felonies under those portions of
§ 924(e)(2)(B) that remained intact in the wake of Johnson II.

[Doc. 1]3 at 6–9.

In the

alternative, Manzanares contended that his prior New Mexico convictions for aggravated assault

2

The record showed a discrepancy as to the precise number of Manzanares’s prior felony convictions: his PSR
listed six, but his charging document listed five. Compare PSR at 5, with [CR Doc. 2] at 1. Judge Vidmar noted
that this discrepancy was immaterial because the conviction not listed in the indictment was not one of the three on
which the government relied for the ACCA sentencing enhancement. [CV Doc. 21] at 4 n.2.
3
Unless specifically noted otherwise, citations to document numbers refer to the docket in the civil case, case
number 16-cv-0599 WJ/SMV.

4
014a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 5 of 34

with a deadly weapon, aggravated battery, and armed robbery4 could have qualified as violent
felonies (and thus, counted toward his armed career criminal designation) only under the
now-invalidated residual clause. [Doc. 1] at 9–24. He argued he was therefore entitled to be
resentenced without application of the ACCA enhancement.
The government responded that it had not waived the right to argue that Manzanares’s
prior felony convictions qualified under the still-extant clauses of § 924(e)(2)(B). [Doc. 10]
at 14–15. It contended that because Manzanares did not object to the PSR or imposition of the
ACCA enhancement at sentencing, “the Court must assume that it relied upon all” of his
qualifying prior convictions. Id. at 15 (emphasis added). The government further argued that
each of the three prior felony convictions qualified under the force clause of the ACCA. Id. at 3–
14.
Judge Vidmar found that (1) the government had not waived the right to argue that
Manzanares’s prior convictions qualified under those portions of § 924(e)(2)(B) that survived
Johnson II, and (2) Manzanares’s prior convictions for New Mexico aggravated assault with a
deadly weapon, aggravated battery, and armed robbery qualified as violent felonies, irrespective
of the unconstitutional residual clause. [Doc. 21]. Therefore, he recommended that Manzanares
not be resentenced and that his § 2255 motion be denied.

4

Though the PSR never indicated which three of his prior convictions were the qualifying felonies, the parties
apparently agreed that these were the three at issue. Additionally, in a memorandum filed after Manzanares filed the
instant motion, the United States Probation Office identified these three prior convictions as those that “meet the
definition of violent felony, without the use of the residual clause.” [Doc. 7].

5
015a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 6 of 34

A. Judge Vidmar found that the United States had not waived the right to argue
that Manzanares’s prior convictions qualified as violent felonies
under the force clause of the ACCA.
Judge Vidmar first addressed the threshold issue raised by Manzanares—whether the
government had waived the right to argue that certain of his prior convictions still qualified as
violent felonies under § 924(e)(2)(B) in the wake of Johnson II. [Doc. 21] at 6–10. Neither the
PSR nor the Court at sentencing expressly stated which of Manzanares’s prior felony convictions
qualified as violent felonies, or which clause of § 924(e)(2)(B) the convictions fell under (i.e.,
the so-called “force clause,” the “enumerated clause,” or the “residual clause”).

Id. at 6.

Manzanares contended that, by failing to object at the time of his sentencing, the government
waived the right to later identify which prior convictions were qualifying ACCA predicate
offenses. Id. Manzanares argued it would be “fundamentally unfair” to allow the government to
“swap out unidentified ACCA predicate offenses” on collateral review of his ACCA
enhancement. Id.
Judge Vidmar found that Manzanares had cited no case law in support of his argument
that the government could not rely on prior convictions not specifically referenced as ACCA
predicates in the PSR or at sentencing. The case from the Eleventh Circuit on which Manzanares
relied actually contravened his position. Id. at 6–7 (citing McCarthan v. Warden, 811 F.3d 1237
(11th Cir. 2016), rev’d en banc on other grounds sub nom. McCarthan v. Dir. of Goodwill
Indus.-Suncoast, Inc., 851 F.3d 1076 (2017)). The court in McCarthan had noted that, in
general, defendants are “entitled to know the specific convictions on which an ACCA
enhancement is recommended and imposed.” Id. at 7–8 (quoting McCarthan, 811 F.3d at 1253).
But where the defendant had failed to object to the PSR or at sentencing, the court reviewing his
6
016a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 7 of 34

§ 2254 petition “must . . . assume that the district court relied on all of [the defendant’s]
ACCA-qualifying

convictions

in

imposing”

his

ACCA

enhancement.

Id.

at

8

(quoting McCarthan, 811 F.3d at 1254). McCarthan put the onus on the defendant, not the
government, to object to the PSR or at sentencing where the ACCA enhancement was applied
and the qualifying prior convictions not explicitly identified. Absent any such objection, the
reviewing court must presume that the sentencing court relied on all ACCA-qualifying
convictions.5 Judge Vidmar found that a recent decision from this District further compelled the
finding that the government had not waived the right to rely on Manzanares’s prior convictions.
Id. at 9–10 (citing United States v. Garcia, No. 16-cv-0240 JB/LAM, 2017 WL 2271421, at *19–
21 (D.N.M. Jan. 31, 2017) (“There is no dispute that [the defendant] has a robbery conviction,
and the conviction’s existence cannot be waived. The Court can consider it. It does not
disappear. What [the sentencing judge] did with it, or did not do with it, ten years ago is
irrelevant.”)). The government was not foreclosed, Judge Vidmar found, from arguing that any
of the qualifying prior felony convictions listed in Manzanares’s PSR still qualified as ACCA
predicate offenses even absent the unconstitutional residual clause.
B. Judge Vidmar found that Manzanares’s predicate offenses qualified
as violent felonies under the force clause of the ACCA.
1. The Force Clause of § 924(e)(2)(B)
The “force clause” of § 924(e)(2)(B) provides that an underlying conviction is a violent
felony where it “has as an element the use, attempted use, or threatened use of physical force
against the person of another.” § 924(e)(2)(B)(i). To determine whether a prior conviction
5

Judge Vidmar noted that McCarthan did discuss the circumstances under which the government’s failure to object
to the PSR or at sentencing would constitute waiver. [Doc. 21] at 8 n.5 (citing McCarthan, 811 F.3d at 1250 n.8).
He found, however, that such circumstances were inapplicable to the facts of this case. Id.

7
017a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 8 of 34

qualifies as a violent felony under the force clause, courts compare § 924(e)(2)(B)(i) with the
elements of the underlying statute of conviction.
Specifically, courts must compare the force required for a conviction of the predicate
offense against the physical force requirement of § 924(e)(2)(B)(i). Courts must determine
whether the least culpable conduct criminalized by the underlying offense—e.g., the least
amount of force required to sustain a conviction for New Mexico aggravated assault with a
deadly weapon—meets the physical force requirement of the force clause. See Moncrieffe v.
Holder, 133 S. Ct. 1678, 1684 (2013) (“Because we examine what the state conviction
necessarily involved, not the facts underlying the case, we must presume that the conviction
rested upon [nothing] more than the least of th[e] acts criminalized, and then determine whether
even those acts are encompassed by [the force clause].” (last set of brackets added) (internal
quotation marks omitted)). This inquiry requires application of both federal and state law.
Federal law defines the meaning of the phrase “use, attempted use, or threatened use of physical
force” in § 924(e)(2)(B)(i). United States v. Harris, 844 F.3d 1260, 1264 (10th Cir. 2017). And
state law defines the substantive elements of the crime of conviction. Id.; United States v.
Rivera-Oros, 590 F.3d 1123, 1126 (10th Cir. 2009). In discerning the level of force that gives
rise to conviction under the predicate offense, there must be a “realistic probability, not a
theoretical possibility,” that the statute would apply to the conduct contemplated. Rivera-Oros,
590 F.3d at 1133 (quoting Gonzales v. Duenas-Alvarez, 549 U.S. 183, 193 (2007)).
In undertaking this comparison, courts generally apply the “categorical approach.”
Descamps v. United States, 133 S. Ct. 2276, 2283 (2013). That is, courts look only to the
statutory definition of the predicate offense, while ignoring the particular facts of the case. Id. If
8
018a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 9 of 34

the statute of conviction “sweeps more broadly” than the force clause (i.e., if conviction could
result without the use of “physical force,” as federal law defines that term), the prior conviction
cannot qualify as an ACCA predicate, irrespective of whether the defendant’s actual conduct in
committing the crime involved the use of physical force. See id.
Some statutes, however, have a more complicated structure and require a slightly
different approach. A single statute may be “divisible”—it may list elements in the alternative—
and thereby define multiple crimes. Id. at 2281. When a statute defines multiple crimes by
listing alternative elements, courts undertake the “modified categorical approach” to determine
which of the multiple alternative elements listed in the statute applied to convict the defendant.
Id.

Under the modified categorical approach, a sentencing court looks to the record of

conviction (for example, the indictment, jury instructions, or plea agreement and colloquy) to
determine what crime, with what elements, a defendant was convicted of. The court may then
compare the physical force required for conviction under that crime, as the categorical approach
commands, with the physical force requirement of the force clause. See id.
The Supreme Court has provided guidance for determining whether a statute is
indivisible or divisible and, thus, whether to implement the modified categorical approach first or
proceed directly to the categorical approach. Mathis v. United States, 136 S. Ct. 2243, 2256–57
(2016). The central question is whether the statute lists multiple elements disjunctively, thereby
creating multiple different crimes (i.e., a divisible statute, triggering the modified categorical
approach), or whether it enumerates various factual means of committing a single element (i.e.,
an indivisible statute, requiring the categorical approach). Id. at 2249–50. If a state court
decision “definitively answers the question,” then a sentencing judge “need only follow what it
9
019a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 10 of 34

says.” Id. at 2256. Or, “the statute on its face may resolve the issue.” Id. If statutory
alternatives carry different punishments, then they must be elements (and, thus, the statute
divisible, triggering the modified categorical approach). Id. (citing Apprendi v. New Jersey, 530
U.S. 466 (2000)). “Conversely, if a statutory list is drafted to offer ‘illustrative examples,’ then
it includes only a crime’s means of commission.” Id.
2. Manzanares’s Prior Convictions
In Johnson v. United States (“Johnson I”), 559 U.S. 133, 138–40 (2010), the
Supreme Court interpreted “physical force” under the force clause of § 924(e)(2)(B) to mean
“violent force—that is, force capable of causing physical pain or injury to another person.” Id.
at 140. The Court offered this interpretation in the course of holding that the force required for
conviction under a state battery statute—“any intentional physical contact, no matter how
slight”—was less than the ACCA’s physical force requirement. Id. at 138 (internal quotation
marks omitted). In other words, “physical force” under the force clause means more than de
minimis touching. See Harris, 844 F.3d at 1264–65 (“It is important to keep in mind why it was
necessary for the Court [in Johnson I] to use the language” of “violent force” and “strong
physical force”—namely, because the Court “was rejecting the government’s argument that
physical force means . . . . even the slightest offensive touching.” (internal quotation marks
omitted)).

10
020a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 11 of 34

Judge Vidmar considered whether each of Manzanares’s prior qualifying convictions
required the degree of force necessary to satisfy the “physical force” requirement of
§ 924(e)(2)(B)(i).6 He found that they did.
Aggravated Assault with a Deadly Weapon
Manzanares was convicted of aggravated assault, NMSA 1978, § 30-3-2. That statute
provides:
Aggravated assault consists of either:
A. unlawfully assaulting or striking at another with a deadly
weapon;
B. committing assault by threatening or menacing another while
wearing a mask, hood, robe or other covering upon the face, head
or body, or while disguised in any manner, so as to conceal
identity; or
C. willfully and intentionally assaulting another with intent to
commit any felony.
§ 30-3-2. There was no dispute that Manzanares was convicted of aggravated assault with a
deadly weapon, § 30-3-2(A). [Doc. 21] at 15.
Judge Vidmar found that Tenth Circuit precedent compelled the finding that § 30-3-2(A)
satisfied the “physical force” requirement of the force clause. Id. at 15–17. In United States v.
Ramon Silva, 608 F.3d 663, 670–71 (10th Cir. 2010), the Tenth Circuit held that “apprehension
causing” aggravated assault with a deadly weapon was a violent felony under the ACCA’s force
clause. Subsequently, in United States v. Maldonado-Palma, 839 F.3d 1244 (10th Cir. 2016),
the Tenth Circuit held that § 30-3-2(A), aggravated assault with a deadly weapon, was

6

The government did not contend that any of Manzanares’s prior convictions qualified under the enumerated clause
of § 924(e)(2)(B). The only issue, then, was whether each qualified under the force clause.

11
021a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 12 of 34

categorically a “crime of violence” under the force clause, no matter which theory of the
underlying simple assault applied.

Id. at 1250.

After determining that the New Mexico

aggravated assault statute was divisible, the court found that commission of aggravated assault
with a deadly weapon required the use (and not just the mere possession) of a deadly weapon in
carrying out the assault. Id. Employing a deadly weapon in an assault “necessarily threatens the
use of physical force, i.e., ‘force capable of causing physical pain or injury to another person.’”
Id. (quoting Johnson I, 559 U.S. at 140).

Therefore, the court concluded, New Mexico

aggravated assault with a deadly weapon was categorically a crime of violence.7
Manzanares argued that a recent decision of the New Mexico Court of Appeals, State v.
Branch, 2016-NMCA-071, 387 P.3d 250, undercut the reasoning of Ramon Silva and
Maldonado-Palma and compelled a different outcome. [Doc. 21] at 17. Manzanares argued
that, per the reasoning of Branch, assault in New Mexico did not require proof of the defendant’s
intent to assault the victim—only that the victim reasonably believed he or she was in danger.
Id. (citing [Doc. 19] at 2). He argued that the Tenth Circuit’s recent decisions were wrongly
decided because they rested on the principle that the use of physical force must be “intentional
against the person of another.” Id. (citing [Doc. 19] at 4). Judge Vidmar rejected this argument.
He found he was bound by the Tenth Circuit’s decisions in Ramon Silva and Maldonado-Palma.
Id.

Branch was decided before Maldonado-Palma and therefore did not undermine the

precedential value of that decision. Id.; see also United States v. Miera, 2013 WL 6504297, at
*18 (D.N.M. Nov. 22, 2013) (questioning the Tenth Circuit’s opinion in Ramon Silva but
7

Although the court in Maldonado-Palma was evaluating the force clause of United States Sentencing Guidelines
§ 2L1.2, Judge Vidmar found that its holding applied equally to the identically worded force clause of the ACCA’s
definition of violent felony. [Doc. 21] at 16 (citing Maldonado-Palma, 839 F.3d at 1248; Ramon Silva, 608 F.3d
at 671; United States v. Mitchell, 653 F. App’x 639, 642 (10th Cir. 2016)).

12
022a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 13 of 34

concluding that the court “is not, however, free to disregard the majority’s conclusion that
aggravated assault with a deadly weapon in New Mexico is a violent felony” under the force
clause of the ACCA). Judge Vidmar concluded that New Mexico aggravated assault with a
deadline weapon, § 30-3-2(A), qualified as a violent felony under the force clause of the ACCA,
18 U.S.C. § 924(e)(2)(B).
Aggravated Battery
Manzanares was also convicted of aggravated battery, NMSA 1978, § 30-3-5. That
statute provides:
A. Aggravated battery consists of the unlawful touching or
application of force to the person of another with intent to injure
that person or another.
B. Whoever commits aggravated battery, inflicting an injury to the
person which is not likely to cause death or great bodily harm, but
does cause painful temporary disfigurement or temporary loss or
impairment of the functions of any member or organ of the body,
is guilty of a misdemeanor.
C. Whoever commits aggravated battery inflicting great bodily
harm or does so with a deadly weapon or does so in any manner
whereby great bodily harm or death can be inflicted is guilty of a
third degree felony.
§ 30-3-5. Judge Vidmar first found that § 30-3-5 was divisible into its respective misdemeanor
and felony subsections because statutory alternatives carrying different penalties “must be
elements.”8 [Doc. 21] at 18 (quoting Mathis, 136 S. Ct. at 2256). Applying the modified

8

Manzanares challenged the government’s position that the divisibility question should be decided and the modified
categorical approach applied. He argued, “If the offense is not categorically a [violent felony], then the court does
not use the modified categorical approach to evaluate it. In other words, because the statue is overly broad and
indivisible as to the unlawful touch element, the modified categorical approach is not applied.” [Doc. 19] at 8.
Judge Vidmar rejected this apparent suggestion that because simple battery is a component of aggravated battery,
the divisibility question is irrelevant, because simple battery does not require Johnson I-level physical force.
[Doc. 21] at 18 n.11. He found that Manzanares’s analysis was mistaken and the divisibility question necessarily

13
023a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 14 of 34

categorical approach, he found that Manzanares was convicted under subsection C, the felony
version of the statute.9 Id. at 19.
Having concluded that Manzanares was convicted of felony aggravated battery,
Judge Vidmar compared the elements of § 30-3-5(C) against the force clause of § 924(e)(2)(B).
Conviction under § 30-3-5(C) required proof that the defendant committed a battery (1) that
inflicted great bodily harm, (2) with a deadly weapon, or (3) in a manner whereby great bodily
harm could be inflicted. Id. at 19–20 (citing § 30-3-5(C); UJI 14-322 NMRA; UJI 14-323
NMRA). “Great bodily harm,” under New Mexico law, was “an injury to the person which
creates a high probability of death; or which causes serious disfigurement; or which results in
permanent or protracted loss or impairment of the function of any member or organ of the body.”
Id. at 20 (citing NMSA 1978, § 30-1-12(A)). And a “deadly weapon” was defined as “any
firearm,” “any weapon which is capable of producing death or great bodily harm,” or “any other
weapons with which dangerous wounds can be inflicted.” Id. (citing § 30-1-12(B)). Moreover,
aggravated battery with a deadly weapon in New Mexico required the use of the deadly weapon.
Id. (citing UJI 14-322 (instructing that aggravated battery with a deadly weapon requires proof
that the defendant “touched or applied force to” the victim with a deadly weapon and that “[t]he
defendant used” a deadly weapon (emphasis added))).

preceded a comparison of the elements of the crime of conviction against the force clause. Id. (citing Mathis, 136 S.
Ct. at 2256 (characterizing the divisibility question (“elements or means?”) as the “threshold inquiry”)).
9
It was not clear to Judge Vidmar whether Manzanares genuinely contested that he was convicted of the felony,
rather than the misdemeanor, version of aggravated battery. [Doc. 21] at 19. Neither party had submitted
documentation of his prior conviction beyond the PSR, and Manzanares cited case law providing that “a court may
not use [a PSR] to resolve a conviction’s ambiguities.” Id. (quoting United States v. Hays, 526 F.3d 674, 678
(10th Cir. 2008)). To the extent Manzanares was contesting that he was convicted of felony aggravated battery,
Judge Vidmar took judicial notice of the public record of his conviction, which showed that he was convicted of
felony aggravated battery, § 30-3-5(C). Id. at 19 & n.14.

14
024a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 15 of 34

Judge Vidmar found that the least culpable conduct under § 30-3-5(C) necessarily
involved the use or threatened use of physical force—“force capable of causing physical pain or
injury to another person.” Id. (quoting Johnson I, 559 U.S. at 140). Although the Tenth Circuit
has not decided this specific question, it has evaluated similar statutes. Id. In United States v.
Treto-Martinez, the Tenth Circuit held that Kansas aggravated battery satisfied the force clause
of the Guidelines.10 421 F.3d 1156, 1160 (10th Cir. 2005). Conviction under one prong of the
statute required “physical contact . . . whereby great bodily harm, disfigurement or death can be
inflicted.” Id. “It is clear,” the court held, “that a violation of this provision is . . . sufficient to
satisfy” the force clause. Id. “No matter what the instrumentality of the contact, if the statute is
violated by contact that can inflict great bodily harm, disfigurement or death, it seems clear that,
at the very least, the statute contains as an element the ‘threatened use of physical force.’” Id.
Judge Vidmar also looked to recent Tenth Circuit decisions interpreting assault statutes. Id. at 21
(citing Maldonado-Palma, 839 F.3d at 1249–50 (the use of a weapon “capable of producing
death or great bodily harm” “necessarily threatens the use of physical force”); Ramon Silva, 608
F.3d at 670–71 (even though conviction could result without any actual physical contact against
the victim, the conduct criminalized “could always lead to . . . substantial and violent contact,
and thus . . . would always include as an element the threatened use of violent force” (internal
quotation marks omitted)); United States v. Taylor, 843 F.3d 1215, 1224 (10th Cir. 2016) (noting
that “regardless of the type of dangerous weapon that is employed by a particular defendant, the

10

Judge Vidmar acknowledged that Treto-Martinez pre-dated Johnson I but noted that the court in Treto-Martinez
did not apply a lesser standard of “physical force” in interpreting the force clause. [Doc. 21] at 20 n.15. Therefore,
it did not appear to Judge Vidmar that the precedential value of Treto-Martinez was diminished by Johnson I. Id.

15
025a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 16 of 34

use of a dangerous weapon during an assault or battery always constitutes a sufficient threat of
force to satisfy the [force] clause” (internal quotation marks omitted))).
Conviction under § 30-3-5(C), Judge Vidmar found, required more than de minimis
force—it required the intent to injure and commission in a manner whereby great bodily harm
was inflicted, where death or great bodily harm could have been inflicted, or where a deadly
weapon was used. Id. at 22. A battery committed in a manner that could inflict great bodily
harm necessarily required “force capable of causing physical pain or injury.”

Id. (citing

Johnson I, 559 U.S. at 140; Treto-Martinez, 421 F.3d at 1160). Likewise, given the holding of
Maldonado-Palma and its predecessors, a battery committed with the use of a deadly weapon
“always constitutes a sufficient threat of force to satisfy the [force] clause.” Id. (quoting Taylor,
843 F.3d at 1224 (internal quotation marks omitted)). Judge Vidmar found that the additional
requirements of felony aggravated battery—essentially, that serious bodily injury did or could
have occurred—put the statute squarely in the range of conduct that the Tenth Circuit has found
to satisfy the physical force requirement of the force clause.
Manzanares’s arguments to the contrary were unpersuasive. Id. at 22–23. He argued that
conviction under the aggravated battery statute could result from mere “unlawful touching,
however slight.” [Doc. 19] at 6; see also [Doc. 1] at 22–23. Because “[s]imple battery is a
necessary element of aggravated battery,” he contended, any unlawful touch would satisfy the
battery element, and no more force was required for conviction of the greater offense of
aggravated battery. [Doc. 19] at 5. But Judge Vidmar noted that Manzanares cited no case that
supported his argument. [Doc. 21] at 22–23. His citations to cases analyzing “simple” battery,
rather than felony aggravated battery, were inapposite. Id. And the cases he cited that did
16
026a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 17 of 34

actually analyze the aggravated battery statute indisputably involved the use of physical force.
Id. at 23. Manzanares ignored the plain language of the statute, which explicitly required more
than mere touching, and cited no authority suggesting otherwise. Id.
Judge Vidmar likewise rejected Manzanares’s reliance on two Tenth Circuit cases,
finding that both cases were readily distinguishable. Id. (citing United States v. Hays, 526 F.3d
at 678 (Wyoming battery statute did not satisfy the force clause where conviction could result
from “unlawfully touching someone in a rude, insolent or angry manner”—i.e., “any contact,
however slight”); United States v. Barraza-Ramos, 550 F.3d 1246, 1249–51 (10th Cir. 2008)
(Florida aggravated battery statute, which criminalized battery against pregnant women, did not
satisfy the force clause because it could be violated by merely “touching” a pregnant woman
against her will)). Neither case contemplated a battery statute with the additional requirements
of the intent to injure and commission (1) in a manner that causes great bodily harm, (2) with the
use of a deadly weapon, or (3) in a manner whereby great bodily harm could be inflicted. These
additional requirements distinguished New Mexico aggravated battery from the statutes in those
cases. New Mexico felony aggravated battery, § 30-3-5(C), qualified as a violent felony under
the force clause of the ACCA.
Armed Robbery
Finally, Judge Vidmar considered Manzanares’s prior conviction for armed robbery. The
New Mexico robbery statute provides:
Robbery consists of the theft of anything of value from the person
of another or from the immediate control of another, by use or
threatened use of force or violence.
Whoever commits robbery is guilty of a third degree felony.
17
027a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 18 of 34

Whoever commits robbery while armed with a deadly weapon is,
for the first offense, guilty of a second degree felony and, for
second and subsequent offenses, is guilty of a first degree felony.
§ 30-16-2. Judge Vidmar found that the statute was divisible into simple robbery, a third degree
felony, and armed robbery, a first degree felony. [Doc. 21] at 24. Manzanares was convicted of
armed robbery. Id.
Judge Vidmar then evaluated whether New Mexico armed robbery required the degree of
physical force necessary to satisfy the force clause of the ACCA. Id. at 24–32. Without
resolving whether the additional requirement of being armed with a deadly weapon during the
commission of a robbery necessitates the use of force, he found that New Mexico robbery
necessarily required the use of Johnson I-level physical force, irrespective of whether the
defendant was armed.
Judge Vidmar found that the New Mexico robbery statute contained a force element: the
theft must be committed “by use or threatened use of force or violence.” Id. at 25 (quoting
§ 30-16-2). “The use of force, violence, or intimidation is an essential element of robbery.” Id.
(quoting State v. Lewis, 1993-NMCA-165, ¶ 8, 116 N.M. 849). The force must be exercised
against the person of another. State v. Bernal, 2006-NMSC-050, ¶ 28, 140 N.M. 644 (“Robbery
is not merely a property crime, but a crime against a person.”). Further, he found, courts must
consider the degree of force employed in the commission of the theft in evaluating conviction
under the statute. Id. (citing State v. Clokey, 1976-NMSC-035, ¶ 3, 89 N.M. 453 (“The question
of whether or not the snatching of the purse from the victim was accompanied by sufficient force
to constitute robbery is a factual determination, within the province of the jury’s discretion.”)).

18
028a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 19 of 34

Judge Vidmar concluded that New Mexico robbery required more than mere de minimis
force. Id. at 25–26. He was guided by the reasoning of two New Mexico state court decisions
distinguishing robbery from the less serious crime of larceny.

In State v. Curley, the

New Mexico Court of Appeals noted that theft constitutes robbery only where it is accomplished
using “force necessary to overcome any resistance.” Id. at 25 (quoting Curley, 1997 NMCA038, ¶ 18, 123 N.M. 295). The court noted that courts should construe the “resistance of
attachment” requirement “in light of the idea that robbery is an offense against the person, and
something about that offense should reflect the increased danger to the person that robbery
involves over the offense of larceny.” Id. at 25–26 (quoting Curley, 1997-NMCA-038, ¶ 11).
The “reason for the distinction” between robbery and larceny—and the increased punishment—
“is the increased danger to the person.”

Id.

(quoting Curley, 1997-NMCA-038, ¶ 13).

Therefore, “an increase in force that makes the victim aware that her body is resisting could lead
to the dangers that the crime of robbery was designed to alleviate.”

Id. (quoting Curley,

1997-NMCA-038, ¶ 13).
The Supreme Court of New Mexico clarified this rationale in State v. Bernal,
2006-NMSC-050. As the Court found, “robbery is a crime designed to punish the use of
violence” and “to protect citizens from violence.”

[Doc. 21] at 26 (quoting Bernal,

2006-NMSC-050, ¶¶ 27–28). In other words, Judge Vidmar found, the force used to commit a
robbery is that which puts the victim on notice of the theft and creates the possibility of a
dangerous and violent confrontation. Id. The rationale behind the force element of New Mexico
robbery, he found, tracks that identified by the Tenth Circuit in defining a violent felony in

19
029a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 20 of 34

Ramon Silva—the prohibited conduct constitutes a violent felony because it “could always lead
to . . . substantial and violent contact.” Id. (quoting Ramon Silva, 608 F.3d at 672).
Judge Vidmar found that the Tenth Circuit’s decision in United States v. Harris, 844 F.3d
1260, further compelled his findings. [Doc. 21] at 26–28. In evaluating the force element of
Colorado robbery, the Harris court weighed heavily the language of a recent decision of the
Colorado Supreme Court that discussed the distinction between larceny and robbery. Id. at 27
(citing Harris, 844 F.3d at 1266–67).

The additional requirement of violence—of

“circumstances involving a danger to the person as well as a danger to property”—distinguished
Colorado robbery from the “property crime of larceny.” Id. (quoting Harris, 844 F.3d at 1266–
67).

To the extent that earlier decisions of the Colorado appellate courts upheld robbery

convictions on less-than-violent force, such case law was not controlling. Id. Judge Vidmar
found that the rationale of the Colorado Supreme Court distinguishing robbery from larceny, on
which the Harris court relied, mirrored that of the New Mexico courts in Curley and Bernal. Id.
at 27–28. The crime of robbery in New Mexico, as in Colorado, was designed to “punish the use
of violence” and “protect citizens from violence.” Id. at 28 (quoting Bernal, 2006-NMSC-050,
¶¶ 27–28). New Mexico robbery, Judge Vidmar found, qualified as a violent felony under the
force clause of the ACCA.
Judge Vidmar analyzed Manzanares’s authorities and arguments to the contrary and
found them to be inapposite or otherwise unpersuasive. Id. at 28–32. Manzanares relied, for
example, on language in New Mexico case law that referred not to the degree of force used, but
rather to the time at which the force or violence was deployed. Id. at 28–29 (citing State v.
Martinez, 1973-NMCA-120, ¶¶ 4–5, 513 P.2d 402; Lewis, 1993-NMCA-165, ¶ 12). Such
20
030a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 21 of 34

language was not pertinent to the consideration of the degree of force required to commit
robbery in New Mexico.
Judge Vidmar likewise found that the authorities Manzanares cited for the proposition
that New Mexico robbery can be accomplished with de minimis force were unavailing. Id.
at 29–30 (citing Curley, 1997-NMCA-038; Martinez, 1973-NMCA-120; State v. Segura,
1970-NMCA-066, 81 N.M. 673; State v. Verdugo, 2007-NMCA-095, ¶ 26, 142 N.M. 267; State
v. Pitts, 1985-NMCA-045, ¶ 16, 102 N.M. 747). He found that none of the cases Manzanares
cited actually upheld a robbery conviction on de minimis force, and that any dicta in the cases
suggesting as much ran counter to the principles set out in Curley and Bernal. Id. Finally,
Judge Vidmar was not persuaded by the case law Manzanares cited from outside the
Tenth Circuit. Id. at 30–31; see also Harris, 844 F.3d at 1262 (recognizing that the circuits
“have reached varying results” on the question of whether robbery statutes satisfy the force
clause).
Judge Vidmar found that Manzanares’s prior convictions for New Mexico aggravated
assault with a deadly weapon, aggravated battery, and armed robbery all qualified as violent
felonies irrespective of the unconstitutional residual clause. He therefore recommended that
Manzanares’s motion be denied.
IV. Standard of Review for Objections to Magistrate Judge’s PF&RD
A district judge must “make a de novo determination of those portions of the report or
specified proposed findings or recommendations to which objection is made.”

28 U.S.C.

§ 636(b)(1)(C). “[O]bjections to the magistrate judge’s report must be both timely and specific
to preserve an issue for de novo review by the district court[.]” United States v. 2121 E. 30th St.,
21
031a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 22 of 34

73 F.3d 1057, 1060 (10th Cir. 1996). To preserve an issue, a party’s objections to a PF&RD
must be “sufficiently specific to focus the district court’s attention on the factual and legal issues
that are truly in dispute.” Id. Moreover, “theories raised for the first time in objections to the
magistrate judge’s report are deemed waived.” United States v. Garfinkle, 261 F.3d 1030, 1030–
31 (10th Cir. 2001).
V. Analysis
Manzanares objects to Judge Vidmar’s proposed findings and recommended disposition.
[Doc. 25]. He objects to the findings that each of his three prior New Mexico convictions for
aggravated assault with a deadly weapon, aggravated battery, and armed robbery requires the use
of Johnson I-level force, such that they qualify as violent felonies under the force clause of
§ 924(e)(2)(B).11 On de novo review, the Court agrees with Judge Vidmar that all three prior
convictions qualify as violent felonies under the force clause of § 924(e)(2)(B). Manzanares’s
objections will be overruled and his motion will be denied.
Aggravated Assault with a Deadly Weapon
Manzanares objects to Judge Vidmar’s finding that New Mexico aggravated assault with
a deadly weapon, § 30-3-2(A), qualifies as a violent felony under the force clause of
§ 924(e)(2)(B). As discussed supra, Judge Vidmar found that the Tenth Circuit’s recent decision
in Maldonado-Palma controlled the outcome here. [Doc. 21] at 15–17.
Manzanares urges in his objections, as he did in his briefing on the motion, that
Maldonado-Palma is not controlling.

He suggests that Maldonado-Palma and the

Tenth Circuit’s earlier decision in Ramon Silva misinterpreted § 30-3-2(A) in two material ways
11

Manzanares did not object to Judge Vidmar’s finding that the government had not waived the right to argue that
these prior convictions qualified as violent felonies under the force clause of § 924(e)(2)(B).

22
032a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 23 of 34

that bear on whether the statute satisfies the force clause of § 924(e)(2)(B). First, he contends
that conviction under § 30-3-2(A) can result from no more than a person insulting another (i.e.,
committing an assault) while possessing a weapon, and that the provision does not require that
the weapon actually be used in the commission of the assault. [Doc. 25] at 2, 6–8 (discussing
New Mexico case law). Because the court in Maldonado-Palma interpreted § 30-3-2(A) to
require that the deadly weapon be “actively employed in committing the assault”—and it was
this use of the deadly weapon that satisfied the physical force requirement of the force clause—
that case was wrongly decided, Manzanares argues. Id. at 3–6 (quoting Maldonado-Palma,
839 F.3d at 1250). He suggests that the Tenth Circuit failed to follow the categorical approach
set out in Mathis by improperly reading “beyond the statute’s plain language” to find that § 30-32(A) required “use” of the weapon. Id. at 4. Second, Manzanares maintains that § 30-3-2(A)
does not require “any intent with respect to the victim,” and thus does not require the use of force
“against the person of another.” Id. at 8; see also id. at 8–11 (citing Branch, 2016-NMCA-071;
State v. Manus, 1979-NMSC-035, 93 N.M. 95, overruled on other grounds by Sells v. State,
1982-NMSC-125, 98 N.M. 786). He argues that Ramon Silva and Maldonado-Palma rest on “an
incorrect idea of the elements” of § 30-3-2(A). Id. at 13.
Manzanares’s objections are without merit and will be overruled. As an initial matter, the
court in Maldonado-Palma did not, as Manzanares suggests, sidestep the categorical approach
mandated by the Supreme Court. The categorical approach directs courts to “focus solely on . . .
the elements of the crime of conviction” to determine whether the crime of conviction qualifies
as a violent felony—in the context of the force clause, whether the crime of conviction
necessarily requires the use of Johnson I-level “physical force.” See Mathis, 136 S. Ct. at 2248.
23
033a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 24 of 34

Courts are directed to look at the statutory elements only and not to consider the underlying facts
of the crime. This direction away from examining the record of a particular conviction is the
raison d’être of the categorical approach. In employing the categorical approach, courts must
look to state law to interpret the statutory elements. Harris, 844 F.3d at 1264. Interpreting the
meaning of a statutory element is different than looking behind the elements to the facts
surrounding conviction. Manzanares seems to conflate these analyses, only the latter of which is
at odds with the categorical approach. See [Doc. 25] at 4–5. In evaluating “what proof is
necessary” for conviction under § 30-3-2(A), the Tenth Circuit in Maldonado-Palma was merely
interpreting the meaning of the statutory requirement that the assault be committed “with a
deadly weapon.” 839 F.3d at 1249. This process is not inconsistent with the categorical
approach; the categorical approach demands it.
Moreover, Manzanares’s arguments that Maldonado-Palma misinterpreted New Mexico
law are beside the point. Whatever Manzanares thinks of Maldonado-Palma, it is binding
Tenth Circuit law which this Court must follow. Manzanares urges that Tenth Circuit precedent
interpreting state law “can be overruled by a later declaration[] to the contrary by that state’s
courts.” [Doc. 25] at 13 (internal quotation marks omitted) (quoting United States v. Badger,
818 F.3d 563 (10th Cir. 2016)). Manzanares argues that Branch is the contrary authority that
renders the holding of Maldonado-Palma non-binding. But, as Judge Vidmar pointed out,
Branch was decided before Maldonado-Palma.

It is not contrary intervening authority.

Moreover, as Manzanares himself notes, the Branch court relied on the reasoning of a
New Mexico Supreme Court case decided in 1979. See [Doc. 25] at 13. The Court is bound by
the Tenth Circuit’s recent decision in Maldonado-Palma. New Mexico aggravated assault with a
24
034a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 25 of 34

deadly weapon, § 30-3-2(A), qualifies as a violent felony under the force clause of
§ 924(e)(2)(B).
Aggravated Battery
Manzanares also objects to Judge Vidmar’s finding that New Mexico aggravated battery,
§ 30-3-5(C), qualifies as a violent felony under the force clause of § 924(e)(2)(B).

His

objections expound on the argument he made in his briefing on the motion. The force element of
aggravated battery, he argues, is the “unlawful touching or application of force” to the person of
another. Aggravated battery thus requires for conviction no more force than that required to
commit simple battery—unlawful touching, no matter how slight—and such de minimis force
does not satisfy the force requirement of § 924(e)(2)(B). Although felony aggravated battery
additionally requires that the battery either inflict great bodily harm, be done in a manner
whereby great bodily harm or death could be inflicted, or be committed with a deadly weapon,
this additional requirement concerns the risk of injury and does not bear on the degree of force
required to accomplish the battery. Manzanares contends that Judge Vidmar erred by rejecting
the proposition that New Mexico aggravated battery includes as an element common law battery
and thus can be accomplished with de minimis force. [Doc. 25] at 15. He further suggests that
Judge Vidmar’s consideration of the divisibility question and application of the modified
categorical approach were unnecessary. Id. at 26–27.
Manzanares’s objections are without merit and will be overruled. First, Judge Vidmar
correctly applied the modified categorical approach at the outset of his analysis, finding that
§ 30-3-5 was divisible into its misdemeanor and felony versions.

[Doc. 21] at 18–19.

Manzanares argues that application of the modified categorical approach is unnecessary.
25
035a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 26 of 34

[Doc. 25] at 26–27.

He contends that the divisibility question “is irrelevant because both

[misdemeanor and felony aggravated battery] require proof of an unlawful touch,” and thus
neither can satisfy the force clause. Id. at 26. For the reasons set out in the PF&RD and
discussed further infra, Manzanares’s analysis is flawed. The additional requirements of felony
aggravated battery bear on the question of whether that crime qualifies as a violent felony under
the force clause. It is not sufficient to point out that both versions include the “unlawful
touching” requirement of simple battery.

The divisibility analysis and application of the

modified categorical approach necessarily precede a comparison of the elements against the
force clause, because a statute’s divisibility vel non will determine what the elements of the
statute are.12 See Mathis, 136 S. Ct. at 2256 (characterizing the divisibility question as the
“threshold inquiry”). I adopt Judge Vidmar’s finding that Manzanares was convicted of felony
aggravated battery, § 30-3-5(C).
As to the substantive analysis of § 30-3-5(C), Manzanares misapprehends
Judge Vidmar’s findings in the PF&RD.

He suggests that Judge Vidmar “refuses to

acknowledge” that unlawful touching is an element of aggravated battery. [Doc. 25] at 15.
Judge Vidmar did not refuse to acknowledge the “unlawful touching” requirement. He found,
instead, that the “unlawful touching” element could not be considered in isolation, as
Manzanares urges, in comparing that statute to the force clause. Judge Vidmar found that the
additional alternative requirements that elevate simple battery to felony aggravated battery—the
infliction of great bodily harm, commission in a manner whereby great bodily harm could be
12

As Judge Vidmar pointed out in the PF&RD, resolution of the divisibility of § 30-3-5 is an essential first step in
this case for a more fundamental reason. See [Doc. 21] at 19 & n.12. Section 30-3-5 is divisible into a
misdemeanor, § 30-3-5(B), and a felony, § 30-3-5(C). If Manzanares had been convicted of the misdemeanor
version, that would be the end of the analysis. A misdemeanor conviction would not qualify as a violent felony
under § 924(e)(2)(B) irrespective of whether the statute of conviction satisfied the force clause.

26
036a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 27 of 34

inflicted, or commission with a deadly weapon—put the statute within the range of conduct that
satisfies the force clause. See [Doc. 21] at 20–22. In other words, a battery committed in a
manner that could inflict great bodily harm necessarily requires the use or threat of Johnson Ilevel physical force. Id. at 22 (citing Johnson I, 559 U.S. at 140; Treto-Martinez, 421 F.3d
at 1160).
The Court adopts the reasoning set out in the PF&RD. Contrary to Manzanares’s urging,
the additional alternative requirements of bodily injury (or use of a deadly weapon) render § 303-5(C) a qualifying predicate felony under the force clause. As the Tenth Circuit set out in
Treto-Martinez, “[n]o matter what the instrumentality of the contact, if the statute is violated by
contact that can inflict great bodily harm, disfigurement or death, it seems clear that, at the very
least, the statute contains as an element the ‘threatened use of physical force.’” 421 F.3d
at 1160. The “unlawful touching” requirement cannot be evaluated independently of the bodily
injury requirement in determining whether the crime requires Johnson I-level force.

As

Judge Vidmar found, Manzanares’s reliance on case law analyzing simple battery is unavailing.
See [Doc. 21] at 22–23; see also, e.g., United States v. Barraza-Ramos, 550 F.3d at 1250–51
(Florida aggravated battery statute did not satisfy force clause because it could be violated by
merely “touching” a pregnant woman against her will; the statute elevated simple battery to
aggravated battery based only on the status of the victim, rather than any additional force or
injury requirement).
Manzanares does cite to two Tenth Circuit cases holding that certain state statutes,
despite having a bodily injury element, failed to satisfy the force clause of the Guidelines.
[Doc. 25] at 19–21 (citing United States v. Perez-Vargas, 414 F.3d 1282, 1285 (10th Cir. 2005)
27
037a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 28 of 34

(assault statute requiring that the defendant “knowingly or recklessly causes bodily injury to
another person or with criminal negligence he causes injury to another person by means of a
deadly weapon”); United States v. Rodriguez-Enriquez, 518 F.3d 1191, 1195 (10th Cir. 2008)
(statute criminalizing the “nonconsensual administration of a drug, substance, or preparation”
that causes harm to the victim (internal quotation marks omitted)).

In those cases, the

Tenth Circuit rejected the view that the word “physical” in the context of “physical force” could
“relate[] to the effect of the force”; instead, it “must refer to the mechanism by which the force is
imparted to the ‘person of another.’”

Rodriguez-Enriquez, 518 F.3d at 1194.

Thus,

“intentionally exposing someone to hazardous chemicals,” for example, would not constitute
“physical force,” though it could cause significant bodily harm. Id. at 1195. Relying on those
cases, Manzanares argues that a person could be convicted of felony aggravated battery by, for
example, intentionally exposing someone to an allergen that results in serious bodily injury.
[Doc. 25] at 20. He argues that under the logic of Perez-Vargas and Rodriguez-Enriquez, such
conduct would not satisfy the physical force requirement.
After Perez-Vargas and Rodriguez-Enriquez were decided, however, the Supreme Court
decided United States v. Castleman, 134 S. Ct. 1405 (2014). In that case, the Court evaluated
whether conviction for an offense involving knowingly or intentionally causing bodily injury to
another satisfied the force clause of the definition of a “misdemeanor crime of domestic
violence” under 18 U.S.C. § 922(g)(9).

The Court held that “the knowing or intentional

causation of bodily injury necessarily involves the use of physical force.” 134 S. Ct. at 1414. “A
‘bodily injury,’” the Court held, “must result from ‘physical force.’” Id. This is true whether or
not the force is applied directly:
28
038a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 29 of 34

[A]s we explained in [Johnson I], “physical force” is simply “force
exerted by and through concrete bodies,” as opposed to
“intellectual force or emotional force.” And the common-law
concept of “force” encompasses even its indirect application. . . .
It is impossible to cause bodily injury without applying force in the
common-law sense.
Second, the knowing or intentional
application of force is a “use” of force. [The defendant] is correct
that under Leocal v. Ashcroft, the word “use” “conveys the idea
that the thing used (here, ‘physical force’) has been made the
user’s instrument.” But he errs in arguing that although “[p]oison
may have ‘forceful physical properties’ as a matter of organic
chemistry, . . . no one would say that a poisoner ‘employs’ force or
‘carries out a purpose by means of force’ when he or she sprinkles
poison in a victim’s drink[.]” The “use of force” in [the
defendant’s] example is not the act of “sprinkl[ing]” the poison; it
is the act of employing poison knowingly as a device to cause
physical harm. That the harm occurs indirectly, rather than
directly (as with a kick or punch), does not matter. Under [the
defendant’s] logic, after all, one could say that pulling the trigger
on a gun is not a “use of force” because it is the bullet, not the
trigger, that actually strikes the victim. Leocal held that the “use”
of force must entail “a higher degree of intent than negligent or
merely accidental conduct”; it did not hold that the word “use”
somehow alters the meaning of “force.”
Id. at 1414–15 (internal citations omitted).
It is true that the Court in Castleman was evaluating the physical force requirement of a
misdemeanor crime of domestic violence, rather than the physical force requirement of a violent
felony. And the majority opinion in Castleman acknowledged that it was not deciding whether
“causation of bodily injury necessarily entails violent force.” 134 S. Ct. at 1413 (emphasis
added). But see id. at 1417 (Scalia, J., concurring) (“[I]ntentionally or knowingly caus[ing]
bodily injury categorically involves the use of force capable of causing physical pain or injury to
another person.” (second alteration in original) (internal citation and quotation marks omitted)).
Nevertheless, the Court’s reasoning with respect to the meaning of “use of force”—namely, its
determination that such use of force may be effectuated through direct or indirect means—
29
039a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 30 of 34

extends to an interpretation of an identically-worded phrase appearing in a similar context.13 The
Court’s logic—i.e., that the use of physical force lies in the act of causing physical harm and not
necessarily in the physical exertion required to create the harm—applies equally to the force
clause of § 924(e)(2)(B). Castleman thus undercuts the logic of Perez-Vargas and RodriguezEnriquez and forecloses Manzanares’s argument on this point.
Battery that inflicts or could have inflicted great bodily harm necessarily entails the
violent force required by Johnson I—the use or threat of force “capable of causing physical pain
or injury to another person.” 559 U.S. at 140. New Mexico felony aggravated battery, § 30-35(C), qualifies as a violent felony under the force clause of § 924(e)(2)(B).14
Armed Robbery
Finally, Manzanares objects to Judge Vidmar’s finding that New Mexico armed robbery,
§ 30-16-2, qualifies as a violent felony under the force clause of § 924(e)(2)(B). Though he
found that § 30-16-2 was divisible into simple robbery and armed robbery, Judge Vidmar found
that New Mexico robbery requires Johnson I-level physical force irrespective of whether the
defendant was armed with a deadly weapon. [Doc. 21] at 24–32. In his objections, Manzanares
re-asserts the arguments and authorities he cited in his original briefing. [Doc. 25] at 28–32.
Citing the same body of New Mexico case law, he maintains that New Mexico robbery can be

13

Other courts in the Tenth Circuit have reached the same conclusion. See Miller v. United States, 2016 WL
7256875, at *5–7 (D. Wyo. Dec. 15, 2016) (unpublished) (Wyoming robbery statute requiring that the defendant
inflict bodily injury upon another person in the commission of the crime satisfied the Guidelines’ force clause);
Pikyavit v. United States, 2017 WL 1288559, at *4–7 (D. Utah Apr. 6, 2017) (applying the reasoning of Castleman
to hold that Utah’s assault by prisoner statute qualified under the ACCA’s force clause).
14
Several other judges in this District have reached the same conclusion. E.g., United States v. Pacheco, 16-cv0341 WJ/CG, [Doc. 15] at 8–9 (D.N.M. June 1, 2017); United States v. Sanchez, 16-cv-0659 JAP/GBW, [Doc. 26]
at 14–16 (D.N.M. Sept. 27, 2017); United States v. Dallas, 16-cv-0676 MV/LF, [Doc. 15] at 6–10 (D.N.M. May 3,
2017); United States v. Sedillo, 16-cv-0426 MCA/LAM, [Doc. 18] at 13–16 (D.N.M. Mar. 6, 2017); United States v.
Vasquez, 16-cv-0678 JAP/WPL, [Doc. 11] at 8 (D.N.M. Jan. 10, 2017).

30
040a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 31 of 34

accomplished through the application of de minimis force to the victim. Id. at 28–29. He cites a
large volume of case law from other federal courts in support of his position. Id. at 31–32.
On de novo review, the Court adopts the reasoning set out by Judge Vidmar in the
PF&RD and finds that New Mexico robbery requires Johnson I-level physical force.

As

discussed at length supra, there is no question that the force clause of the ACCA requires more
than de minimis force. See Harris, 844 F.3d at 1264–65 (the Court in Johnson I used the
language of “violent force” and “strong physical force” in the course of “rejecting the
government’s argument that physical force means . . . . even the slightest offensive touching”
(internal quotation marks omitted)). New Mexico robbery requires more than such minimal
force. See, e.g., Clokey, 1976-NMSC-035, ¶ 3 (“The question of whether or not the snatching of
the purse from the victim was accompanied by sufficient force to constitute robbery is a factual
determination, within the province of the jury’s discretion.”); Lewis, 1993-NMCA-165, ¶ 15
(declining to interpret the New Mexico robbery statute “to encompass situations where force is
used to retain property immediately after its nonviolent taking,” and reiterating that “force must
be the lever by which property is separated from the victim” (emphasis added)).
As Judge Vidmar noted in the PF&RD, the language of the Supreme Court of
New Mexico in State v. Bernal provides the strongest indication that New Mexico robbery
requires Johnson I-level violent physical force. New Mexico robbery, as opposed to larceny,
“requires, and is designed to punish, the element of force.” 2006-NMSC-050, ¶ 28. “Since
robbery generally carries a heavier punishment than larceny, the robbery statute clearly is
designed to protect citizens from violence.” Id. Robbery “is not merely a property crime, but a

31
041a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 32 of 34

crime against a person.”15 Id.; see also Harris, 844 F.3d at 1264 (looking to language from the
Colorado Supreme Court distinguishing between robbery and larceny in deciding that Colorado
robbery satisfied the force clause); United States v. Garcia, 2017 WL 2271421, at *24 (D.N.M.
Jan. 31, 2017) (relying on Bernal to find that New Mexico robbery satisfies the force clause).
Manzanares fails to address Judge Vidmar’s analysis of Bernal in his objections. His other
arguments regarding case law purporting to provide that New Mexico robbery can be committed
with no more than de minimis force were soundly rejected by Judge Vidmar in the PF&RD.
See [Doc. 21] at 28–30; see also Garcia, 2017 WL 2271421, at *23 n.12 (“[A]s applied, the
Court is convinced that Court of Appeals of New Mexico’s standard results in robbery
convictions only where a defendant utilizes Johnson I violent force.”).

His citations to

Tenth Circuit case law in support of his position are unavailing because the cases he cites address
statutes whose force elements are satisfied by de minimis force. E.g., United States v. Ama,
684 F. App’x 736, 741 (10th Cir. 2017) (federal statute criminalizing “forcibl[e]” assault of a
federal employee did not satisfy force clause, where “[e]ven minor contact, such as lay[ing]
one’s finger on another person without lawful justification” was “forcible” (last alteration in
original) (internal quotation marks omitted)); United States v. Lee, 2017 WL 2829372, at *4
(10th Cir. June 30, 2017) (unpublished) (holding that Florida statute that could be violated by
“wiggling and struggling” to avoid arrest or “clipping an officer’s hand while fleeing” did not
15

In the PF&RD, Judge Vidmar noted, based on the above-quoted language in Bernal, that the force required to
commit robbery is that which puts the victim on notice and creates the possibility of a dangerous and violent
confrontation. [Doc. 21] at 26. He noted that this looming potential for a violent altercation—on which the force
requirement of New Mexico robbery is based—was similar to the threat of violence created by the force element of
the assault statute analyzed by the Tenth Circuit in Ramon Silva. Id. The Tenth Circuit found that the assault statute
satisfied the force clause because it “could always lead to . . .substantial and violent contact.” Id. (quoting Ramon
Silva, 608 F.3d at 672). In his objections, Manzanares suggests that this reference to the possibility of violent
contact is somehow a reference to the invalid residual clause. [Doc. 25] at 29–30. In fact, the language on which
Judge Vidmar was relying came from the Tenth Circuit’s analysis of the force clause.

32
042a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 33 of 34

satisfy the force clause, though it was a “close call”); United States v. Nicholas, 686 F. App’x
570, 574 (10th Cir. 2017) (Kansas robbery “requires nothing more than de minimis physical
contact”). Likewise, his citations to other federal court decisions analyzing similar statutes are
unavailing. Again, most of the cases he cites address statutes whose force requirement can be
satisfied through de minimis force. See id. at 31–32.
New Mexico robbery qualifies as a violent felony under the force clause of
§ 924(e)(2)(B). Several judges, including the undersigned, have reached the same conclusion in
other cases.16
Conclusion
Manzanares’s prior convictions for New Mexico aggravated assault with a deadly
weapon, § 30-3-2(A), aggravated battery, § 30-3-5(C), and armed robbery, § 30-16-2, qualify as
violent felonies under the force clause of the ACCA’s definition of “violent felony,”
§ 924(e)(2)(B).

His prior convictions qualify as violent felonies irrespective of the

now-invalidated residual clause. His motion under § 2255 will be denied.
IT IS THEREFORE ORDERED, ADJUDGED, AND DECREED that Manzanares’s
Objections to the Magistrate Judge’s Proposed Findings and Recommended Disposition
[CR Doc. 57; CV Doc. 25] are OVERRULED.
IT IS FURTHER ORDERED that the Magistrate Judge’s Proposed Findings and
Recommended Disposition [CR Doc. 53; CV Doc. 21] are ADOPTED.
16

See United States v. Barela, 2017 WL 3142516 (D.N.M. July 25, 2017); see also, e.g., Garcia, 2017 WL
2271421, at *53–57; United States v. Serrano, 16-cv-0670 RB/WPL, [Doc. 16] at 4 (D.N.M. May 9, 2017);
United States v. Dean, 16-cv-0289 WJ/LAM, [Doc. 17] at 6 (D.N.M. May 3, 2017); Rhoads v. United States, 16-cv0325 JCH/GBW, [Doc. 20] at 11 (D.N.M. Apr. 5, 2017); Hurtado v. United States, 16-cv-0646 JAP/GJF, [Doc. 17]
(D.N.M. Jan. 11, 2017). But see United States v. King, 16-cv-0501 MV/KK, [Doc. 18] at 29 (D.N.M. Mar. 31,
2017) (finding that New Mexico armed robbery does not qualify as a violent felony under the ACCA’s force clause).

33
043a

Case 1:12-cr-01563-WJ Document 58 Filed 12/01/17 Page 34 of 34

IT IS FURTHER ORDERED that Defendant Archie Manzanares’s Motion to Correct
Sentence Pursuant to 28 U.S.C. § 2255 [CR Doc. 35; CV Doc. 1] is DENIED. Case number
16-cv-0599 WJ/SMV is DISMISSED with prejudice.
IT IS SO ORDERED.
__________________________________
WILLIAM P. JOHNSON
UNITED STATES DISTRICT JUDGE

34
044a

Case 1:12-cr-01563-WJ Document 59 Filed 12/01/17 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
UNITED STATES OF AMERICA,
v.

Plaintiff,

No.

ARCHIE MANZANARES,

12-cr-1563 WJ
16-cv-0599 WJ/SMV

Defendant.
ORDER ISSUING CERTIFICATE OF APPEALABILITY
THIS MATTER is before the Court sua sponte under Rule 11(a) of the Rules Governing
Section 2255 Proceedings. By final judgment entered concurrently herewith, the Court denied
Defendant Archie Manzanares’s Motion to Correct Sentence Pursuant to 28 U.S.C. § 2255
[CR Doc. 35; CV Doc. 1]1 and dismissed with prejudice case number 16-cv-0599 WJ/SMV. “At
the COA stage, the only question is whether the applicant has shown that ‘jurists of reason could
disagree with the district court’s resolution of his constitutional claims or that jurists could
conclude the issues presented are adequate to deserve encouragement to proceed further.’” Buck
v. Davis, 137 S. Ct. 759, 773 (2017) (quoting Miller-El v. Cockrell, 537 U.S. 322, 327 (2003)).
The Court determines that Defendant has satisfied this standard and will issue a certificate of
appealability solely on the issue of whether Defendant’s prior conviction for New Mexico armed
robbery, NMSA 1978, § 30-16-2, qualifies as a violent felony under the Armed Career Criminal
Act (“ACCA”), 18 U.S.C. § 924(e)(2)(B). See United States v. Garcia, No. 17-2019 (10th Cir.
June 7, 2017) (order issuing a certificate of appealability on whether New Mexico robbery,

1

References that begin with “CV” are to Case No. 16-cv-0599 WJ/SMV. References that begin with “CR” are to
the underlying criminal case, Case No. 12-cr-1563 WJ.

045a

Case 1:12-cr-01563-WJ Document 59 Filed 12/01/17 Page 2 of 2

§ 30-16-2, qualifies as a violent felony under the ACCA). No certificate of appealability issues
as to any other issue raised by Defendant.
IT IS THEREFORE ORDERED, ADJUDGED, AND DECREED that a certificate of
appealability issue only on the issue of whether Defendant’s prior conviction for New Mexico
armed robbery, § 30-16-2, qualifies as a violent felony under the ACCA.
IT IS SO ORDERED.
____________________________________
WILLIAM P. JOHNSON
UNITED STATES DISTRICT JUDGE

046a

No. ____________

In the

Supreme Court of the United States
ARCHIE MANZANARES, Petitioner
v.

UNITED STATES OF AMERICA, Respondent
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

Certificate of Service

I, Margaret A. Katze, hereby certify that on September 14, 2020, a copy of
the petitioner’s Motion for Leave to Proceed in Forma Pauperis and Petition
for Writ of Certiorari to the United States Court of Appeals for the Tenth
Circuit were mailed postage prepaid, to the Solicitor General of the United
States, Department of Justice, Room 5614,

1

950 Pennsylvania Avenue, N.W., Washington, D.C. 20530-0001, counsel for
the Respondent.
Respectfully submitted,
Stephen P. McCue
Federal Public Defender
DATED: September 14, 2020
By:

s/ Margaret A. Katze
Margaret A. Katze*
Federal Public Defender
111 Lomas Blvd., Suite 501
Albuquerque, New Mexico 87102
Telephone: (505) 346-2489
Facsimile: (505) 346-2494
Attorneys for the Petitioner
* Counsel of Record

2

